<html>
<title> - CYBER ENABLED INFORMATION OPERATIONS</title>
<body><pre>[Senate Hearing 115-426]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 115-426
 
                  CYBER	ENABLED INFORMATION OPERATIONS

=======================================================================

                                HEARING

                               before the

                     SUBCOMMITTEE ON CYBERSECURITY

                                 of the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             April 27, 2017

                               __________

         Printed for the use of the Committee on Armed Services
         
         
         
         
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]        
         


       Available via the World Wide Web: http://www.Govinfo.gov/

                               __________
                               
                   U.S. GOVERNMENT PUBLISHING OFFICE
                   
34-175 PDF                 WASHINGTON : 2019                                 
                               
                               
                               
                               
                               


                      COMMITTEE ON ARMED SERVICES

                     JOHN McCAIN, Arizona, Chairman

JAMES M. INHOFE, Oklahoma            JACK REED, Rhode Island
ROGER F. WICKER, Mississippi         BILL NELSON, Florida
DEB FISCHER, Nebraska                CLAIRE McCASKILL, Missouri
TOM COTTON, Arkansas                 JEANNE SHAHEEN, New Hampshire
MIKE ROUNDS, South Dakota            KIRSTEN E. GILLIBRAND, New York
JONI ERNST, Iowa                     RICHARD BLUMENTHAL, Connecticut
THOM TILLIS, North Carolina          JOE DONNELLY, Indiana
DAN SULLIVAN, Alaska                 MAZIE K. HIRONO, Hawaii
DAVID PERDUE, Georgia                TIM KAINE, Virginia
TED CRUZ, Texas                      ANGUS S. KING, JR., Maine
LINDSEY GRAHAM, South Carolina       MARTIN HEINRICH, New Mexico
BEN SASSE, Nebraska                  ELIZABETH WARREN, Massachusetts
LUTHER STRANGE, Alabama              GARY C. PETERS, Michigan

                   Christian D. Brose, Staff Director

               Elizabeth L. King, Minority Staff Director

                                 ______

                     Subcommittee on Cybersecurity

                  MIKE ROUNDS, South Dakota, Chairman

DEB FISCHER, Nebraska                BILL NELSON, Florida
DAVID PERDUE, Georgia                CLAIRE McCASKILL, Missouri
LINDSEY GRAHAM, South Carolina       KIRSTEN E. GILLIBRAND, New York
BEN SASSE, Nebraska                  RICHARD BLUMENTHAL, Connecticut

                                  (ii)

  


                         C O N T E N T S

                      ______________________

                             April 27, 2017

                                                                   Page

Cyber-Enabled Information Operations.............................     1

Inglis, John C., Former Deputy Director, National Security Agency     4
Lumpkin, Honorable Michael D., Principal at Neptune Computer          8
  Incorporated and Former Acting Under Secretary of Defense for 
  Policy.
Waltzman, Rand, Ph.D., Senior Information Scientist, Rand            12
  Corporation.
Watts, Clint, Robert A. Fox Fellow, Foreign Policy Research          19
  Institute.

                                 (iii)



                  CYBER-ENABLED INFORMATION OPERATIONS

                              ----------                              


                        THURSDAY, APRIL 27, 2017

                           U.S. Senate,    
                               Subcommittee
                                  on Cybersecurity,
                               Committee on Armed Services,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:33 p.m., in 
Room SR-222, Russell Senate Office Building, Senator Mike 
Rounds (chairman of the subcommittee) presiding.
    Present: Senators Rounds, Fischer, Nelson, McCaskill, 
Gillibrand, and Blumenthal.

            OPENING STATEMENT OF SENATOR MIKE ROUNDS

    Senator Rounds. Good afternoon. We will call this meeting 
to order. The Cybersecurity Subcommittee meets today to receive 
testimony on cyber-enabled information operations, to include 
the gathering and dissemination of information in the cyber 
domain.
    We are fortunate to be joined this afternoon by an expert 
panel of witnesses: Chris Inglis, former Deputy Director of the 
National Security Agency; Michael Lumpkin, principal at Neptune 
Computer Incorporated and the former Acting Under Secretary of 
Defense for Policy; Rand Waltzman, senior information scientist 
at RAND Corporation; and Clint Watts, the Robert A. Fox Fellow 
at the Foreign Policy Research Institute.
    At the conclusion of my remarks and those of Senator 
Nelson, we will hear briefly from each of our witnesses. I ask 
our witnesses to limit their opening statements to 5 minutes, 
in order to provide maximum time for member questions. We will 
be accepting your entire statements for the record.
    The subcommittee has conducted two classified briefings on 
cyber threats and deterrence of those threats. The purpose of 
those briefings was to help our new subcommittee analyze the 
current situation, to include the threat as well as our own 
strengths and weaknesses.
    The briefings included discussion of the report of the 
Defense Science Board's Task Force on Cyber Deterrence. Today, 
in our first open forum, we will further discuss threat 
capabilities, specifically those of Russia, to use new tools to 
obtain and disseminate information in this new domain of 
conflict.
    I would also note that we will follow the 5-minute rule and 
the early bird rule today as we move forward.
    Russian information operations, like those we experienced 
during the 2016 election and currently ongoing in Europe, are 
not new. Many nation-states, in one form or another, seek to 
shape outcomes, whether they be elections or public opinion. 
They do this to enhance their national security advantage. In 
particular, the Soviet Union conducted decades of 
disinformation operations against the United States and our 
allies.
    However, today's cyber and other disinformation-related 
tools have enabled Russia to achieve operational capabilities 
unimaginable to its Soviet forbearer.
    Our hearing today is not intended to debate the outcome of 
the 2016 election, which experts agree was not undermined by 
any cyberattacks on our voting infrastructure or the counting 
of ballots. But the purpose of today's hearing is to learn from 
that experience and other such experiences in order to assess 
how information operations are enhanced in terms of the reach, 
speed, agility, and precision, and impact through cyberspace.
    Ultimately, we will continue to struggle with cyber-
enhanced information operation campaigns until we address the 
policy and strategy deficiencies that undermine our overall 
cyber posture.
    In other words, my hope is that this hearing will be 
forward-, not backward-looking, and help lay the foundation for 
the legislation and oversight necessary to address this 
national security threat.
    Disinformation and fake news pose a unique national 
security challenge for any society that values freedom of 
speech and a free press. Our adversaries aim to leverage our 
distaste for censorship against us to delegitimize our 
democracy, influence our public discourse, and ultimately 
undermine our national security and confidence. It is 
imperative that we use our experience with the 2016 election to 
create the defenses necessary to detect and respond to future 
efforts.
    We look to our witnesses to help us better understand the 
threats we face and develop the tools we need to address it.
    Just last month, we heard from the Defense Science Board 
about the urgent need for cyber deterrence. According to the 
Board's findings, for at least the next decade, the offensive 
cyber capabilities of our most capable adversaries are likely 
to far exceed the United States' ability to defend key critical 
infrastructure. Our ability to defend against cyber-enabled 
information operations will also likely require an element of 
deterrence and demonstrating that actions will have 
consequences.
    With that in mind, we look to our witnesses to help us 
better understand the challenges that cyber-enabled information 
operations will pose for us in the future and what they believe 
will be required to counter this threat.
    Information operations are not new and have been used in 
one form or another in nearly every conflict throughout 
history. Cyberspace has and will continue to enhance the scope 
and reach of these campaigns. Our ability to develop a strategy 
to deter and repel cyber-enabled operations is critical. Our 
citizens' confidence in our democratic process depends on it.
    As we begin our first open hearing, I want to express my 
gratitude for the opportunity to serve with our ranking member, 
Senator Bill Nelson. In addition to his great service to our 
Nation, Senator Nelson brings a wealth of knowledge and 
experience that I know all members of our subcommittee will 
look to in the days ahead.
    Senator Nelson?

                STATEMENT OF SENATOR BILL NELSON

    Senator Nelson. Thank you, Mr. Chairman, and thank you for 
your very gracious remarks.
    Thank you as we proceed on trying to piece together a new 
threat, one that we have seen employed against our country and 
our basic foundations of our country. Because even though 
information warfare has been used for years and years, we know 
now, as a result of the Internet, there are all new 
opportunities for mischief, because we have seen, at a small 
cost, both in terms of people and money, a regime like Putin's 
regime can directly access the people of the United States, 
bypassing traditional media filters. It is possible to 
weaponize information to accomplish their particular 
objectives.
    As we learned last year, even our private and sensitive 
communications, such as the email in a political campaign, can 
be stolen through cyber hacking and then released through 
established media. In this way, modern technologies and tools--
social media platforms, cyber hacking to steal information--can 
therefore create armies of robot computers and the so-called 
big data analytics powered by artificial intelligence, all of 
that can amplify the speed, scale, agility, and precise 
targeting of information operations beyond what was imaginable 
back in the heyday of the Cold War, when there were two big 
superpowers and we were at each other with our information 
campaigns. This is a whole new magnitude greater.
    These tools and operations support are enhanced by the more 
traditional elements, such as the multimedia Russia Today 
network and Sputnik. Those two spread disinformation and 
propaganda while trying to appear as objective news sources.
    As the testimony of this committee has already heard in 
prior hearings, and as the prepared statements of our 
distinguished panel of witnesses today confirm, our government 
and our society remain ill-prepared to detect and counter this 
powerful new form of information warfare or to deter it through 
the threat of our own offensive information operations.
    Our witnesses, however, today will explain that it is, 
indeed, possible to apply the same technologies used by the 
adversaries against them to fight back against their 
aggression.
    But harnessing and applying these technologies ourselves 
effectively, both defensively and offensively, will require 
significant changes to the way we are organizing tasks both 
inside the Department of Defense and other agencies.
    Moreover, success also requires a deep partnership between 
the public and the technology companies who have built and 
operate the networks and platforms where this conflict is 
playing out.
    This is a tremendous challenge that we face today. I thank 
you, Mr. Chairman, for calling this hearing.
    Senator Rounds. Thank you, Senator Nelson.
    At this time, we would like to begin with 5-minute opening 
statements.
    If you would prefer, Mr. Inglis, you may begin.

 STATEMENT OF JOHN C. INGLIS, FORMER DEPUTY DIRECTOR, NATIONAL 
                        SECURITY AGENCY

    Mr. Inglis. Chairman Rounds, Ranking Member Nelson, members 
of the committee, thanks very much for the opportunity to 
appear here today.
    I will be very brief. I have submitted a written statement 
for the record, but I would like to make, upfront, four quick 
points.
    First, on the true nature of cyberspace, as we consider 
what happens in this domain, which I believe is, in fact, a new 
domain extended from the old domains, you can think of it as a 
noun. That noun, in my view, would be that it is the meld of 
technology and people and the procedures that bind to the two. 
If we try to solve just one of those three pillars, we will 
find out that the other two will defeat us.
    If you think about the verb, what is happening in that 
space is massive connectivity, fading borders, and an 
exponential increase in the ratio of data to information. There 
is a lot more data, but that doesn't mean that we know a lot 
more, that we have a lot more information.
    The second point, on the trends that compound the 
importance of cyberspace, there are, in my view, four trends 
that essentially side by side with this onrush of technology 
make a difference to our deliberations here today.
    The first is that there is a new geography. It is not 
independent of cyberspace. But companies, individuals, begin to 
think about their opportunities, their aspirations based upon a 
geography that is not physical anymore. It is based upon 
opportunities without regard to physical borders or the 
jurisdictions that typically go hand in glove with those 
physical borders.
    Second, there is a new means for organizing people. People 
organize by ideology as much or more as by proximity. In the 
physical world, that gives rise to a lone wolf terrorist. In 
the cyber world, that gives rise to people who you think are 
aligned with your values but are not necessarily because they 
reach across the borders that you can see.
    Three, there are disparities that continue to exist in the 
world. That is no great surprise. It has been with us since the 
dawn of time. But those disparities are increasingly reconciled 
in and through cyberspace. Whether by collaboration or 
competition or conflict, disparities in wealth and treasure, 
disparities in religious respects, disparities in all manner of 
things, cyber is the new venue for reconciliation.
    Finally, not independent of that, geopolitical tension 
continues to exist. It too is increasingly reconciled in and 
through cyberspace.
    Summing up those four trends, they tend to reduce the 
influence of traditional institutions--nation-states--by 
defusing roles, fading borders, and flooding us with data as 
opposed to information. But I would conclude nation-states are 
not dead yet.
    The third major point that I would make is that it is 
increasingly important to consider the consequences of the 
scope, scale, and use of cyberspace.
    My colleague, Dr. Waltzman, submitted a written record that 
talks about three levels of cyberspace. I will kind of take 
some liberties with that, but the foundation of that might be 
that you talk about the literal kind of infrastructure in that 
space, possibly the data. Just above that, you think then about 
what that content means. Just above that is the confidence that 
comes from having a reliance on those.
    I kind of talk about those because we need to be clear 
about our terms. I was very much appreciative of Chairman 
Rounds' opening statement where he used the term information 
warfare as discrete from cyber warfare. Cyber warfare, in my 
view, is not a standalone entity. It is something that has to 
be a component of the larger state of war that exists between 
two entities.
    When you talk about information warfare, it is at the third 
level. It is at that topmost stack. It is not necessarily 
comprised of an exchange of tools or an exchange of literal 
warfare. It is, in fact, a conflict of ideas. Some of those 
ideas we may prefer. Some of those ideas we may not. But we 
have to talk about those as distinct entities.
    My final point would be that the issue before us is both 
about defending then cyberspace and also about defending the 
critical processes that depend upon our confidence in 
cyberspace. I would leave us with perhaps some things to think 
about in terms of what the attributes of a solution might look 
like.
    We should remember that there are no strategic 
capabilities, only capabilities that are employed in the 
execution of strategic aims. We need to begin with the 
declaration of what those strategic aims are. We need to 
communicate them fully, faithfully, and in a collaborative 
manner.
    We need to employ all instruments of power in a 
collaborative fashion. What we seek is not the proper 
sequencing of these instruments of power but a concurrent 
application of those instruments of power.
    We need to stop reacting well and thinking that we, 
therefore, have done good, and start to drive and perhaps lead 
in this space, and at least anticipate well or track well.
    Finally, as Ranking Member Nelson indicated, we can use the 
techniques that have been used against us, but we should never 
compromise our values, and there is a distinct difference 
between those two.
    Thank you.
    [The prepared statement of Mr. Inglis follows:]

                   Prepared Statement by Chris Inglis
    Thank you, Chairman Rounds, Ranking Member Nelson, and Members of 
the Committee. I am pleased to appear before you today to talk on the 
topic of cyber enabled information operations.
    As the committee noted in its invitation, ``information 
operations'' have been conducted as a component of state and non-state 
operations for centuries but have recently taken on significantly 
greater import because of the leverage, speed, scope and scale afforded 
them by the technologies and trends attendant to the rise of the 
internet.
    My comments today are derived from twenty-eight years of experience 
at the National Security Agency working both of its related but 
distinguished missions: the Information Assurance mission supporting 
the defense of critical information and networks, and the Signals 
Intelligence mission which generates foreign intelligence needed to 
inform the Nation's defense. While I possess technical degrees in 
engineering and computer science, the majority of my career at the 
National Security Agency was spent in leadership positions, including 
seven and one half years' service as NSA's senior civilian and Deputy 
Director during the period 2006-2014. Since July 2014, I have also 
served on several Defense Science Board studies on the topic of cyber, 
and as a visiting professor of cyber studies at the United States Naval 
Academy, which has been developing and delivering cyber education for 
future Naval and Marine Corps officers for several years. While the 
views I will express are necessarily mine alone, I will draw from the 
sum of these experiences in these opening remarks and throughout the 
question and answer period.
    The committee's invitation letter asked for perspectives on the 
changes in ``scale, speed, and precision [afforded] by modern cyber 
hacking capabilities,
social media and large-scale data analytics'' as well as views on 
``technical, organizational, and operational means needed to detect and 
counter these operations, including public-private collaboration and 
international
efforts.''
    I will address these in brief opening remarks and welcome the 
opportunity to discuss in greater detail during the hearing's question 
and answer session.
    The revolution afforded by the internet over the past forty years 
is one fueled by innovations in technology and the private sector's 
ability to deliver that innovation at scale and with supporting 
infrastructure to billions of consumers in an increasingly global 
marketplace.
    While technology revolution is the visible phenomenon, there are 
several trends that greatly influence the impact of technology on 
society at large. I describe three such trends here that, while not 
independent of technology, are distinct from it, even as they 
exacerbate its effects.

    <bullet>  The first is a new geography wherein people and 
organizations increasingly see the internet as a jurisdiction in its 
own right, a jurisdiction that transcends the physical limitations and 
legal jurisdictions once defined by physical geography alone. The 
effects of this phenomenon necessarily attenuate the influence of 
governments and other jurisdictions that are based on physical borders. 
That fact notwithstanding, the impact can be quite positive, as in the 
case where the allocation of goods and services are optimized on a 
global basis, smoothing out sources, flows, and consumption; or quite 
negative, wherein the challenges of reconciling legal jurisdiction and 
the inherent difficulty of cyber attribution conspire to increase the 
challenge of achieving reasonable enforcement of legal norms in and 
through cyberspace.
    <bullet>  The second is a new social order wherein people 
increasingly organize by ideology as much or more by physical proximity 
alone. As with the new geography, the impact of this can be perceived 
as good or bad. The sweep of democratic ideals across many nations in 
the 2011 Arab Spring was largely borne of this phenomenon. In a similar 
manner, radicalization of lone wolf terrorists who are inspired to acts 
of terror without ever meeting their mentors makes use of the same 
mechanism. Wikileaks too is borne of this phenomenon--a force in the 
world that knows no physical borders even while it has an increasing 
effect--sometimes favorable, sometimes not--on institutions whose 
jurisdictions are often constrained by them.
    <bullet>  Finally, there is the increasing propensity of private 
citizens, organizations and nation-states to see cyberspace as a means 
of collaborating, competing, or engaging in conflict--activities that 
in previous times would have played out across physical geography 
employing traditional instruments of personal, soft or hard power. As 
with the other trends I define here, this trend can have effects 
perceived as good or bad. More importantly, the ubiquitous nature of 
cyberspace has made it increasingly likely that cyberspace will serve 
as the preferred venue for reconciliation of perceived disparity(ies) 
in the world--whether those disparities are in wealth, knowledge, or 
national interest. Witness the denial of service attacks by Iran on US 
financial institutions in 2012-2013, the attack by North Korea on Sony 
pictures in 2014, and the information war conducted by Russia against 
the US election process(es) in 2016.

    The role of cyberspace as an essential foundation for personal 
pursuits, commerce, delivery of services, and national security 
combined with its use as a new geography, an alternative means for 
social organization and as a venue for reconciliation all converge to 
yield the challenges we experience on an almost daily basis. But 
because the challenges result from far more than technology and other 
phenomena within cyberspace itself, any attempt to address these larger 
strategic challenges will need to consider and address more than 
cyberspace itself.
    To be more concrete, cyberspace may be considered as the sum of 
technology, people and the procedures and practices that bind the two. 
Any attempt to improve the resilience and integrity of cyberspace and 
the strategic things that depend on it must necessarily address all 
three and must, to the maximum extent possible, be constructed to work 
across physical borders as much or more as within them.

    <bullet>  By way of practical example, an organization desiring to 
improve the resilience of its information technology enterprise would 
do well to spend as much time and energy defining roles, policies and 
procedures as on the firewalls and security tools intended to comprise 
a defensible architecture. A review of cyber breaches over time clearly 
shows that failures in these procedures and human error are the 
principal weakness(es) exploited by cyber criminals, nation-state 
actors, and hacktivists.
    <bullet>  While technology must play a role in reducing the 
probability and impact of human error, vulnerabilities attributable to 
the human element will never be removed.
    <bullet>  In the same vein, governments must acknowledge that the 
globally interconnected nature of information systems and look for ways 
to craft laws and rules that will not be rejected by neighboring 
jurisdictions at some physical border, resulting in balkanization of 
systems and commercial markets, resulting in market inefficiencies, 
reduced system performance and security seams.

    Some thoughts on essential elements of a solution follow:

    Given the convergence of technology, the actions of individuals, 
and the collective actions of private and nations-state organizations 
that takes place in and through cyberspace, a bias for collaboration 
and integration must underpin any solutions intended to improve 
collective resilience and reliability. This calls for active and real-
time collaboration, not simply divisions of effort, between the private 
and public sectors.
    Analogous to security strategies defined in and for the physical 
world, the most effective solutions for cyberspace will leverage the 
concurrent and mutually supporting actions of individual actors, the 
private sector, the public sector, and Government coalitions.
    The private sector remains the predominant source of cyber 
innovation as well as the majority owner and operator of cyber 
infrastructure. The private sector must therefore be empowered and 
accountable within the limits of its knowledge and control to create 
defensible architectures and defend them. While the Cyber Security Act 
of 2015 made an important down payment on the ability of private sector 
organizations to share cyber threat information, greater attention 
should be given to increasing the incentives for private sector 
organizations to share and act on time-critical information in the 
defense of their data, infrastructure and businesses.
    Government efforts must be biased towards the defense of all 
sectors, vice the defense of its own authorities and capabilities alone 
(an extension of the so-called ``equities problem'' that has 
traditionally focused on sharing information on inherent flaws in 
software and hardware). Government information regarding threats and 
threat actors must be shared with affected persons and parties at the 
earliest possible opportunity with a bias to preventing the spread of 
threats rather than explaining-in-arrears the source and attribution of 
already experienced threats.
    The recent creation of the United Kingdom's National Cyber Security 
Centre (NCSC) represents a useful example of this approach. Comprised 
of about several hundred government experts from GCHQ (the UK's 
counterpart to the National Security Agency), subject matter experts 
from private sector organizations, and integrees from various civil and 
military UK Government organizations, the NCSC's charter is to effect 
near-real-time collaboration between the private and public sectors, 
with an emphasis on the exchange of heretofore classified information. 
The resulting bias is to share without precondition, treating 
information as sharable by default, vice by exception. While the 
processes internal to the NCSC are worth examining, the transformation 
of private-public model for collaboration is the bigger story.
    Uniquely Government authorities to conduct intelligence operations, 
negotiate treaties, define incentives, and employ inherently 
governmental powers (criminal prosecution, financial sanctions, 
military action among them) must be employed as a complement to private 
sector efforts, not independent of them. A bias towards collective 
action by like-minded Nations will enable their respective private 
citizens and commercial organizations to optimize the conduct of their 
pursuits in and through cyberspace.
    Whole-of-government approaches will, over time, define the various 
circumstances where cyber offense, an inherently military capability, 
should be considered and employed. In this vein, offensive military 
cyber capability must be considered as a viable element of cyber power, 
neither the most preferred or the tool of last resort. The extreme 
conservatism of the U.S. Government in its use of cyber offensive power 
in the past has not been met with similar restraint by its principal 
adversaries and has retarded the development of operational capacity 
needed to deter or counter ever more aggressive adversaries. That said, 
cyber offense should be viewed as an extension of, rather than an 
alternative to, cyber defense, most practicable when it rests on a 
solid foundation of defensible architectures and the vigorous defense 
of those architectures.
    While uniquely challenging, the deterrence of adversary misbehavior 
in cyberspace can be significantly improved. Improved resilience and 
vigorous defense of enterprise infrastructure will aid in deterrence by 
denial. Improved attribution and vigorous pursuit of adversaries who 
violate defined norms will aid in deterrence by cost imposition. 
Collaboration across private/public and international boundaries will 
improve yields in this arena.
    Most important of all, it should be remembered that no capability, 
across the private or public sector, is inherently tactical or 
strategic. Strategic objectives set the stage for strategy. 
Capabilities and tactics only have meaning within that broader context.
    To that end, the actions taken by Russia in 2016 against various 
facets of the American election system must be considered in the 
context of Russian objectives and strategy. When viewed as such, 
Russian actions were neither episodic nor tactical in scope or scale. 
The lesson for us about the role of strategy and proactive campaigns in 
identifying and harnessing diverse actions to a coherent end-purpose is 
clear. While we must not compromise our values through the use of 
particular tactics against potential or presumed adversaries, simply 
responding to adversary initiative(s) is a recipe for failure in the 
long-term.
    We must define and hone our strategic objectives. Strategy must 
then allocate those objectives to the various instruments of power 
available to us. Our efforts will be most effective when reinforced by 
alliances and when fueled by the cross-leveraging effects yielded by 
the concurrent application of individual, private sector, public sector 
power where offense and defense complement rather than trade one 
another.
    Finally, in as much as I describe a mandate for government action 
in this space, I think government action must be:

    <bullet>  Fully informed by the various interests government is 
formed to represent;
    <bullet>  Focused on ensuring the various freedoms and rights of 
individual citizens while also maintaining collective security;
    and
    <bullet>  Mindful that the engine of innovation and delivery is 
almost exclusively found in the private sector.

    To be clear, I do see a role for government both in facilitating 
the creation of an enduring, values based, framework that will drive 
technology and attendant procedures to serve society's interests, and 
in reconciling that framework to-and-with like-minded Nations in the 
world.
    Conversely, I believe government's failure to serve in this role 
will effectively defer leadership to a combination of market forces and 
the preferences of other nation-states which will drive, unopposed, 
solutions that we are likely to find far less acceptable.
    In that spirit, I applaud the initiative and further work of this 
committee in taking up the matter and working through these difficult 
issues.
    I look forward to your questions.

    Senator Rounds. Thank you, Mr. Inglis.
    Mr. Lumpkin, would you care to begin?

STATEMENT OF HONORABLE MICHAEL D. LUMPKIN, PRINCIPAL AT NEPTUNE 
  COMPUTER INCORPORATED AND FORMER ACTING UNDER SECRETARY OF 
                       DEFENSE FOR POLICY

    Mr. Lumpkin. Chairman Rounds, Ranking Member Nelson, 
distinguished members of the committee, thank you for the 
opportunity to be before you today.
    I trust my experience as a career special operations 
officer, Assistant Secretary of Defense for Special Operations 
and Low-Intensity Conflict, and as coordinator and director of 
the Global Engagement Center will be helpful today, along with 
my panel members here, in giving perspective on the current 
status of the U.S. Government strategy, capabilities, and 
direction in informational warfare and counterpropaganda.
    The previous administration and the 114th Congress 
demonstrated clear commitment to this issue. This is evidenced 
by President Obama's Executive Order 13721, which established 
the Global Engagement Center and the 2017 National Defense 
Authorization Act, which expanded that Center's mission.
    The 2017 NDAA [National Defense Authorization Act] expanded 
the GEC's [Global Engagement Center] mandate to include 
counter-state propaganda and disinformation efforts well beyond 
the original charter, which limited it to being focused on 
countering terrorist propaganda.
    This is a big step in the right direction, but the sobering 
fact is that we are still far from where we need to be to 
successfully operate and to have influence in the modern 
information environment.
    Since the end of the Cold War with the Soviet Union, which 
was arguably the last period in history when the United States 
successfully engaged in sustained information warfare and 
counter-state propaganda efforts, technology and how the world 
communicates has changed dramatically.
    We now live in a hyperconnected world where the flow of 
information moves in real time. The lines of authority and 
effort between public diplomacy, public affairs, and 
information warfare have blurred to the point where, in many 
cases, information is consumed by the U.S. and foreign 
audiences at the same time via the same benefits.
    To illustrate this fact, as this committee is aware, it was 
a 33-year-old IT consultant in Abbottabad, Pakistan, that first 
reported the United States military raid against Osama bin 
Laden in May of 2011 on Twitter. This happened as events were 
still unfolding on the ground and hours before the American 
people were officially notified by the President's address.
    While the means and methods of communications have 
transformed significantly over the past decade, much of the 
U.S. Government's thinking on shaping and responding in the 
information environment has remained unchanged, to include how 
we manage U.S. Government information dissemination and how we 
respond to the information of our adversaries.
    We are hamstrung by a myriad of reasons, to include lack of 
accountability and oversight, bureaucracy resulting in 
insufficient levels of resourcing, and an inability to absorb 
cutting-edge information and analytic tools, and access to 
highly skilled personnel. This while our adversaries are 
increasing their investment in the information environment 
while not being constrained by ethics, the law, or even the 
truth.
    The good news is that we have good people working on this 
effort. The work force is committed and passionate and 
recognize why this is important and why we as a Nation need to 
get it right.
    Again, thank you for the opportunity to be here today, and 
I look forward to your questions.
    [The prepared statement of Mr. Lumpkin follows:]

           Prepared Statement by Honorable Michael D. Lumpkin
                              introduction
    Chairman Rounds, Ranking Member Nelson, and distinguished members 
of the Committee, thank you for this opportunity to address you today 
as a private citizen and in an individual capacity on the topic of 
Information Operations. I trust my experience as a career special 
operations officer, Assistant Secretary of Defense for Special 
Operations and Low Intensity Conflict, and Special Envoy and 
Coordinator for the Global Engagement Center at the Department of State 
will be helpful in providing perspective on the current status of the 
U.S. Government's strategy, capabilities, and direction in information 
warfare and counter-propaganda. The previous Administration and the 
114th Congress demonstrated a clear commitment to this issue, as 
evidenced by the President Obama's Executive Order 13721 which 
established the Global Engagement Center (GEC) and the 2017 National 
Defense Authorization Act (NDAA) that expanded the Center's mission. 
The 2017 NDAA expanded the GEC's mandate to include counter-state 
propaganda and disinformation efforts, well beyond its original charter 
which limited it to diminishing the influence of terrorist 
organizations such as the Islamic State of Iraq and Syria (ISIS) in the 
information domain. This is a big step in the right direction, but the 
sobering fact is that we are still far from where we ultimately need to 
be to successfully operate in the modern information environment.
    That said, I am very pleased to be joined here today by former 
Deputy Director of the National Security Agency John Inglis, Dr. Rand 
Waltzman from the RAND Corporation, and Mr. Clint Watts from the 
Foreign Policy Research Institute. Collectively, I believe we are 
postured to address your questions on the issue at hand.
                         the current situation
    Since the end of the Cold War with the Soviet Union, which arguably 
was the last period in history when the United States successfully 
engaged in sustained information warfare and counter-state propaganda 
efforts, technology and how the world communicates has changed 
dramatically. We now live in a hyper-connected world where the flow of 
information moves in real time. The lines of authority and effort 
between Public Diplomacy, Public Affairs, and Information Warfare have 
blurred to the point where in many cases information is consumed by 
U.S. and foreign audiences at the same time via the same methods. To 
illustrate this fact, as this Committee is aware, it was a 33-year-old 
IT consultant in Abbottabad, Pakistan that first reported the United 
States military raid against Osama bin Laden in May of 2011 on Twitter. 
This happened as events were still unfolding on the ground and hours 
before the American people were officially notified by the President of 
the United States' address.
    While the means and methods of communication have transformed 
significantly over the past decade, much of the U.S. Government 
thinking on shaping and responding in the information environment has 
remained unchanged, to include how we manage U.S. Government 
information dissemination and how we respond to the information of our 
adversaries. We are hamstrung for a myriad of reasons to include: lack 
of accountability and oversight, bureaucracy resulting in insufficient 
levels of resourcing and inability to absorb cutting-edge information 
and analytic tools, and access to highly skilled personnel.
                  lack of accountability and oversight
    To date, there is not a single individual in the U.S. Government 
below the President of the United States who is responsible and capable 
of managing U.S. information dissemination and how we address our 
adversaries in the information environment. The 2017 NDAA mandated that 
GEC lead, organize, and synchronize U.S. Government counter-propaganda 
and disinformation efforts against State and non-State actors abroad, 
but it fell short in elevating it to a position where it could fully 
execute its mission. The GEC operates at the Assistant Secretary level 
and lacks the authority to direct the Interagency. In practice, this 
means that the GEC is considered at best a peer to a half dozen 
regional or functional bureaus at the State Department and several 
disparate organizations at the Department of Defense, to say nothing of 
the other departments and agencies that have a stake in this fight. 
Furthermore, although the GEC is directed by law with the mission to 
lead the Interagency, its role is reduced to simply a ``suggesting'' 
function. It is then up to the respective agency whether to comply. 
This misalignment of responsibility, authority, and accountability will 
without doubt continue to hamper the efforts of the GEC until it is 
ultimately corrected by statute.
    Before his departure as the Director of National Intelligence, Jim 
Clapper told this Congress that the United States needs to resurrect 
the old U.S. Information Agency (USIA) and put it on steroids. While I 
agree with DNI Clapper that we need to increase our focus and 
management of the information environment, I do not believe that 
resurrecting the USIA in its previous form will allow the U.S. 
Government to be relevant in the ever-changing information landscape. 
While the USIA had many positives, there were also many challenges 
which ultimately resulted in its disestablishment. That said, DNI 
Clapper was figuratively closer to a solution than even he may have 
thought. Elevating the GEC and its role of leading, coordinating, and 
synchronizing U.S. Government efforts to something similar to what the 
Office of the Director of National Intelligence does with intelligence 
would bring alignment between responsibility, authority, and 
accountability while minimizing significant bureaucratic tension and 
cost.
    Such an elevation in stature would allow the GEC to advocate for 
resourcing levels for the Interagency as well as drive a single 
information strategy and bring discipline to the U.S. Government 
efforts. Many talented people in government are working this issue 
thoughtfully and diligently, unfortunately they are not always working 
in unison because they are answering to different leaders with 
different priorities.
              the limitations of the truth and bureaucracy
    It is not unreasonable to think that the United States will always 
be at some disadvantage against our adversaries in the information 
environment. We are a nation of laws where truth and ethics are 
expected, and rightly so. Our enemies on the contrary are not 
constrained by ethics, the truth, or the law. Our adversaries, both 
State and non-State actors, can and will bombard all forms of 
communications to include traditional media and social media with their 
messages to influence, create doubt of our actions or intentions, and 
even recruit people to their cause. We must ensure that we organize our 
efforts in such a manner that maximize desired outcomes through 
discipline, agility, and innovation.
    When using the terms agility and innovation, the U.S. Government is 
generally not the first thing that to comes to mind. This also holds 
true in the information environment. For example, it remains difficult 
to introduce new social media analytic and forensic tools onto 
government IT systems because of lengthy and highly complicated 
compliance processes. These tools are critical to understanding the 
social media landscape and are required to ensure the U.S. efforts are 
hitting the right audience with the right message at the right time 
that influences thought or behavior. Analytic tools are advancing as 
fast as the information environment itself and time delays in 
implementation can have a devastating effect.
    These tools cost money and it takes significant resources to train 
on these ever-advancing capabilities. While budgets for U.S. Government 
information warfare and counter-propaganda efforts have increased 
significantly, they still pale to the resources applied to kinetic 
efforts. A single kinetic strike against a single high value terrorist 
can tally into the hundreds of millions of dollars when conducted 
outside an area of active armed hostilities (when adding intelligence 
preparation before and after the strike) and in many cases, only have 
short term affects. At the same time the GEC funding in fiscal year 
2017 is below $40 million. Again, please keep in mind that this is a 
significant increase from the GEC fiscal year 2015 budget of $5.6 
million. We are making progress just not fast enough to turn the tide 
in our favor any time soon as many of our adversaries are putting 
significantly more resources into information operations than we are.
    Even when fully resourced and masterfully executed, information 
warfare and counter-propaganda efforts can contain a high element of 
risk. While bureaucracy in government is necessary to standardize 
routine tasks, it cannot be left to control the totality of our efforts 
in the information environment. The bureaucratic standard operating 
procedure strives to reduce risk to almost zero which can ultimately 
lead to diluted messaging efforts that can result in missing the right 
audience with an effective message that shifts their thought and 
behavior to our desired end state. To be successful we must learn to 
accept a higher level of risk and accept the fact that sometimes we are 
just going to get it wrong despite our best efforts. When we do get it 
wrong, we must learn, adapt, and iterate our messaging rapidly to be 
relevant and effective.
                      access to trained personnel
    As mentioned previously, there are some talented people in 
government working the information environment challenge. There are, 
however, just not enough of them nor are they always able to keep up 
with the technological advances in this arena. Some success has been 
realized in using the Section 3161 hiring authority granted to the GEC 
by Executive Order 13721. This authority allows the GEC to hire limited 
term/limited scope employees directly into government based on their 
skills and capabilities. This has provided the GEC access to 
experienced private sector talent that government service does not 
traditionally provide. Access to the talent of academia, Silicon 
Valley, and Madison Avenue now is possible for the GEC. Unfortunately, 
outside of the GEC, other federal departments and agencies do not have 
the ability to leverage the Section 3161 hiring authority to access top 
talent in the field.
                             in conclusion
    Recognition of the importance of U.S. Government's role in the 
information environment continues to grow as exemplified by the 
creation and expansion of the GEC. Indeed, significant progress has 
made. It is imperative, however, that the government's efforts be fully 
coordinated and resourced to be responsive and adaptive. The 
information environment and our adversaries' actions will continue to 
evolve and our means and methods need to remain agile and innovative to 
stay relevant and effective in the emerging security environment.

    Senator Rounds. Thank you, sir.
    Dr. Waltzman, you may begin.

     STATEMENT OF RAND WALTZMAN, Ph.D., SENIOR INFORMATION 
                  SCIENTIST, RAND CORPORATION

    Dr. Waltzman. Chairman Rounds, Ranking Member Nelson, and 
distinguished members of the committee, I would also like to 
thank you for inviting me to testify today.
    I would like to start out by telling you a story. In March 
2006 in Iraq, one of our special forces battalions engaged a 
unit of the Jaish al-Mahdi death squads. In this engagement, 
our guys killed 16, captured 16, freed a badly beaten hostage, 
and destroyed a major weapons cache, and left the scene 
thinking this was a successful operation.
    Unfortunately, there was one catch. By the time they got 
back to their base within 1 hour, the remnants of the Jaish al-
Mahdi death squad had come in, cleaned the scene up, taken 
their fallen comrades, arranged them on prayer mats, and made 
it look--and took pictures with a mobile phone, pushed pictures 
out into the social media, onto the Internet, including press 
releases in English and Arabic, and claimed that those people 
were murdered in the middle of prayer unarmed. All of that was 
done before our guys got back to the base, just like that. It 
was amazing.
    Now, it took the Army 3 days to respond to that, and those 
guys film everything they do. Not only did it take 3 days to 
respond, but an investigation ensued that kept those people 
benched for 30 days.
    This turned out to be a major psychological defeat on what 
people thought was a successful kinetic operation.
    The question you should be asking yourselves at this point, 
I hope, is, how did they manage to do this so fast? They did 
not plan on being killed. They do not plan on an engagement. 
Yet they managed.
    Operations in the information environment are starting to 
play a dominant role in everything from politics to terrorism, 
to geopolitical warfare and even business, all things that are 
becoming increasingly dependent on the use of techniques of 
mass manipulation. These operations are complicated by the fact 
that in the modern information environment, they occur at a 
speed and an extent previously unimaginable.
    Traditional cybersecurity is all about defense of 
information infrastructure. Unfortunately, traditional 
cybersecurity is not going to help against these types of 
attacks. Something quite different is required. The problem 
requires a different approach and a different set of supporting 
technologies, which I will call, collectively, cognitive 
security.
    To emphasize the difference, I would like you to consider a 
classical denial of service attack. In a classical denial of 
service attack, the object of the attack is to bring down a 
server. The way you do it is by generating massive amounts of 
content-free messages that simply overload the server's 
capability to function, and it dies.
    Now, on the other hand, a cognitive denial of service 
attack works in quite a different way. As an example, I would 
like to bring out the Russian elections in 2011.
    In December, there was going to be a demonstration planned 
by antigovernment forces, and they were going to use Twitter to 
organize the election using the hashtag Triumfalnaya, which was 
the name of the square. That was the word that people could use 
to find the tweets that contained the instructions.
    Unfortunately, the pro-government forces found out about 
this and started to automatically generate at the rate of 10 
tweets per second messages that were just filled with garbage, 
just all kinds of rubbish, which produced a cognitive overload 
on the people who were being organized.
    Twitter did not shut it down because it did not violate 
Twitter's terms of services. It was not a denial of services 
attack in the traditional sense. Yet, it brought the thing to 
its knees and destroyed the operation.
    To make cognitive security a reality and counter this 
growing threat in the information environment, I would like to 
suggest a strategy of two basic actions.
    The first one is the establishment of a center of 
excellence in cognitive security. This would be a nonprofit, 
nonpartisan, nongovernmental organization devoted to research, 
development, and education in policies, technologies, and 
techniques of information operations. The center would not be 
operational but rather set research and development agendas, 
and provide education and distribution of technologies and 
service to any of the communities that it would serve.
    The second is a study conducted by an organization, like 
the Office of Net Assessment, for example. This study would 
answer three fundamental questions. The first is, what are the 
laws and policies that currently make operations in the 
information environment difficult to impossible, including 
problems of authorities? Second, how can those laws and 
policies be updated to support the realities of the modern 
information environment? Third, what kind of organizational 
structure is needed to manage cognitive security?
    For further details, I refer you to my written testimony.
    Thank you.
    [The prepared statement of Dr. Waltzman follows:]

 Prepared Statement by Dr. Rand Waltzman \1\, The RAND Corporation \2\
---------------------------------------------------------------------------
    \1\ The opinions and conclusions expressed in this testimony are 
the author's alone and should not be interpreted as representing those 
of the RAND Corporation or any of the sponsors of its research.
    \2\ The RAND Corporation is a research organization that develops 
solutions to public policy challenges to help make communities 
throughout the world safer and more secure, healthier and more 
prosperous. RAND is nonprofit, nonpartisan, and committed to the public 
interest.
---------------------------------------------------------------------------
    Dimitry Kiselev, director general of Russia's state-controlled 
Rossiya Segodnya media conglomerate, has said: ``Objectivity is a myth 
which is proposed and imposed on us.'' \3\ Today, thanks to the 
Internet and social media, the manipulation of our perception of the 
world is taking place on previously unimaginable scales of time, space 
and intentionality. That, precisely, is the source of one of the 
greatest vulnerabilities we as individuals and as a society must learn 
to deal with. Today, many actors are exploiting these vulnerabilities. 
The situation is complicated by the increasingly rapid evolution of 
technology for producing and disseminating information. For example, 
over the past year we have seen a shift from the dominance of text and 
pictures in social media to recorded video, and even recorded video is 
being superseded by live video. As the technology evolves, so do the 
vulnerabilities. At the same time, the cost of the technology is 
steadily dropping, which allows more actors to enter the scene.
---------------------------------------------------------------------------
    \3\ Joshua Yaffa, ``Dmitry Kiselev Is Redefining the Art of Russian 
Propaganda,'' New Republic, July 14, 2014.
---------------------------------------------------------------------------
                           the general threat
    Traditionally, ``information operations and warfare, also known as 
influence operations, includes the collection of tactical information 
about an adversary as well as the dissemination of propaganda in 
pursuit of a competitive advantage over an opponent.'' \4\ This 
definition is applicable in military as well as civilian contexts. 
Traditional techniques (e.g. print media, radio, movies, and 
television) have been extended to the cyber domain through the creation 
of the Internet and social media.
---------------------------------------------------------------------------
    \4\ RAND Corporation, ``Information Operations,'' web site, 
undated.
---------------------------------------------------------------------------
    These technologies have resulted in a qualitatively new landscape 
of influence operations, persuasion, and, more generally, mass 
manipulation. The ability to influence is now effectively 
``democratized,'' since any individual or group can communicate and 
influence large numbers of others online. Second, this landscape is now 
significantly more quantifiable. Data can be used to measure the 
response of individuals as well as crowds to influence efforts. 
Finally, influence is also far more concealable. Users may be 
influenced by information provided to them by anonymous strangers, or 
even by the design of an interface. In general, the Internet and social 
media provide new ways of constructing realities for actors, audiences, 
and media. It fundamentally challenges the traditional news media's 
function as gatekeepers and agenda-setters. \5\
---------------------------------------------------------------------------
    \5\ Rand Waltzman, ``The Weaponization of the Information 
Environment,'' American Foreign Policy Council Defense Technology 
Program Brief, September 2015a.
---------------------------------------------------------------------------
    Interaction within the information environment is rapidly evolving, 
and old models are becoming irrelevant faster than we can develop new 
ones. The result is uncertainty that leaves us exposed to dangerous 
influences without proper defenses.
    The information environment can be broadly characterized along both 
technical and psychosocial dimensions. Information environment security 
today (often referred to as cybersecurity) is primarily concerned with 
purely technical features--defenses against denial-of-service attacks, 
botnets, massive Intellectual Property thefts, and other attacks that 
typically take advantage of security vulnerabilities. This view is too 
narrow, however. For example, little attention has been paid to 
defending against incidents like the April 2013 Associated Press 
Twitter \6\ hack in which a group hijacked the news agency's account to 
put out a message reading ``Two explosions in the White House and 
Barack Obama is injured.'' This message, with the weight of the 
Associated Press behind it, caused a drop and recovery of roughly $136 
billion in equity market value over a period of about five minutes. 
This attack exploited both technical (hijacking the account) and 
psychosocial (understanding market reaction) features of the 
information environment.
---------------------------------------------------------------------------
    \6\ Max Fisher, ``Syrian Hackers Claim AP Hack That Tipped Stock 
Market by $136 Billion. Is It Terrorism,'' Washington Post, April 23, 
2013.
---------------------------------------------------------------------------
    Another attack \7\, exploiting purely psychosocial features, took 
place in India in September 2013. The incident began when a young Hindu 
girl complained to her family that she had been verbally abused by a 
Muslim boy. Her brother and cousin reportedly went to pay the boy a 
visit and killed him. This spurred clashes between Hindu and Muslim 
communities. In an action designed to fan the flames of violence, 
somebody posted a gruesome video of two men being beaten to death, 
accompanied by a caption that identified the two men as Hindu and the 
mob as Muslim. Rumors spread like wildfire that the mob had murdered 
the girl's brother and cousin in retaliation over the telephone and 
social media. It took 13,000 Indian troops to put down the resulting 
violence. It turned out that while the video did show two men being 
beaten to death, it was not the men claimed in the caption; in fact, 
the incident had not even taken place in India. This attack required no 
technical skill whatsoever; it simply required a psychosocial 
understanding of the place and time to post to achieve the desired 
effect.
---------------------------------------------------------------------------
    \7\ Mark Magnier, ``Hindu Girl's Complaint Mushrooms into Deadly 
Indian Riots,'' Los Angeles Times, September 9, 2013.
---------------------------------------------------------------------------
    These last two actions are examples of cognitive hacking. Key to 
the successes of these cognitive hacks were the unprecedented speed and 
extent of disinformation distribution. Another core element of the 
success of these two efforts was their authors' correct assessment of 
their intended audiences' cognitive vulnerability--a premise that the 
audience is already predisposed to accept because it appeals to 
existing fears or anxieties. \8\
---------------------------------------------------------------------------
    \8\ Waltzman, 2015a.
---------------------------------------------------------------------------
    Another particularly instructive incident took place during 
Operation Valhalla in Iraq in March 2006. A battalion of United States 
Special Forces Soldiers engaged a Jaish al-Mahdi death squad, killing 
16 or 17, capturing 17, destroying a weapons cache, and rescuing a 
badly beaten hostage. In the time it took for the soldiers to get back 
to their base--less than one hour--Jaish al-Mahdi soldiers had returned 
to the scene and rearranged the bodies of their fallen comrades to make 
it look as if they had been murdered while in the middle of prayer. 
They then put out pictures and press releases in Arabic and English 
showing the alleged atrocity.
    The U.S. unit had filmed its entire action and could prove this is 
not what happened, and yet it took almost three days before the U.S. 
military attempted to tell its side of the story in the media. The Army 
was forced to launch an investigation that lasted 30 days, during which 
time the battalion was out of commission. \9\
---------------------------------------------------------------------------
    \9\ Rand Waltzman, ``The U.S. Is Losing the Social Media War,'' 
Time, October 12, 2015b. For a detailed account, see Cori E. Dauber, 
``The TRUTH Is Out There: Responding to Insurgent Disinformation and 
Deception Operations, Military Review, January-February 2009.
---------------------------------------------------------------------------
    The Jaish al-Mahdi operation is an excellent example of how social 
media and the Internet can inflict a defeat without using physical 
force. This incident was one of the first clear demonstrations of how 
adversaries can now openly monitor American audience reactions to their 
messaging, in real time, from thousands of miles away and fine tune 
their actions accordingly. Social media and the Internet provide our 
adversaries with unlimited global access to their intended audience, 
while the U.S. Government is paralyzed by legal and policy issues.
                           the russian threat
    In February 2017, Russian Defense Minister Sergey Shoigu openly 
acknowledged the formation of an Information Army within the Russian 
military: ``Information operations forces have been established that 
are expected to be a far more effective tool than all we used before 
for counter-propaganda purposes.'' \10\ The current chief of the 
Russian General Staff, General Valery Gerasimov, observed that war is 
now conducted by a roughly 4:1 ratio of nonmilitary and military 
measures. \11\ In the Russian view, these nonmilitary measures of 
warfare include economic sanctions, disruption of diplomatic ties, and 
political and diplomatic pressure. The Russians see information 
operations (IO) as a critical part of nonmilitary measures. They have 
adapted from well-established Soviet techniques of subversion and 
destabilization for the age of the Internet and social media.
---------------------------------------------------------------------------
    \10\ Ed Adamcyzk, ``Russia Has a Cyber Army, Defense Ministry 
Acknowledges,'' UPI, February 23, 2017.
    \11\ Valery Gersimov, ``The Value of Science Is in the Foresight: 
New Challenges Demand Rethinking the Forms and Methods of Carrying Out 
Combat Operations,'' Military Review, January-February 2016.
---------------------------------------------------------------------------
    Russia has a very different view of IO than the United States (or 
the West in general). For example, a glossary \12\ of key information 
security terms produced by the Russian Military Academy of the General 
Staff contrasts the fundamental Russian and Western concepts of IO by 
explaining that for the Russians IO are a continuous activity, 
regardless of the state of relations with any government, while the 
Westerners see IO as limited, tactical activity only appropriate during 
hostilities. \13\ In other words, Russia considers itself in a 
perpetual state of information warfare, while the West does not.
---------------------------------------------------------------------------
    \12\ Voyennaya Akademiya General'nogo Shtaba, Ckjdfhm nthvbyjd b 
jghtltktybq d jjkfcnb byajhvfwbjyyjq jtpjgfcyjcnb (Dictionary of Terms 
and Definitions in the Field of Information Security), 2nd ed., Moscow 
Voyeninform, 2008.
    \13\ Office of the Under Secretary of Defense for Acquisition and 
Technology, ``Report of the Defense Science Board Task Force on 
Information Warfare,'' Washington, D.C., November 1996.
---------------------------------------------------------------------------
    State-sponsored propaganda and disinformation have been in 
existence for as long as there have been states. The major difference 
in the 21st century is the ease, efficiency, and low cost of such 
efforts. Because audiences worldwide rely on the Internet and social 
media as primary sources of news and information, they have emerged as 
an ideal vector of information attack. Most important from the United 
States perspective, Russian IO techniques, tactics and procedures are 
developing constantly and rapidly, as continually measuring 
effectiveness and rapidly evolving techniques are very cheap compared 
to the costs of any kinetic weapon system--and they could potentially 
be a lot more effective.
    At this point, Russian IO operators use relatively unsophisticated 
techniques systematically and on a large scale. This relative lack of 
sophistication leaves them open to detection. For example, existing 
technology can identify paid troll operations, bots, etc. Another key 
element of Russian IO strategy is to target audiences with multiple, 
conflicting narratives to sow seeds of distrust of and doubt about the 
European Union (EU) as well as national governments. These can also be 
detected. The current apparent lack of technical sophistication of 
Russian IO techniques could derive from the fact that, so far, Russian 
IO has met with minimal resistance. However, if and when target forces 
start to counter these efforts and/or expose them on a large scale, the 
Russians are likely to accelerate the improvement of their techniques, 
leading to a cycle of counter-responses. In other words, an information 
warfare arms race is likely to ensue.
                a strategy to counter the russian threat
    Because the culture and history of each country is unique and 
because the success of any IO defense strategy must be tailored to 
local institutions and populations, the most effective strategies are 
likely to be those that are developed and managed on a country-by-
country basis. An information defense strategy framework for countering 
Russian IO offensives should be ``whole-of-nation'' in character. A 
whole-of-nation approach is a coordinated effort between national 
government organizations, military, intelligence community, industry, 
media, research organizations, academia and citizen organized groups. A 
discreet US Special Operations Force could provide individual country 
support as well as cross country coordination.
    Just as in the physical world, good maps are critical to any IO 
strategy. In the case of IO, maps show information flows. Information 
maps must show connectivity in the information environment and help 
navigate that environment. They exist as computer software and 
databases. Information cartography for IO is the art of creating, 
maintaining, and using such maps. An important feature of information 
maps is that they are constantly changing to reflect the dynamic nature 
of the information environment. Because they are artificially 
intelligent computer programs, they can answer questions; provide 
situation awareness dynamically; and help to plan, monitor, and 
appropriately modify operations. Information maps are technically 
possible today and already exist in forms that can be adapted to 
support the design and execution IO strategy.
    As an example, most of the North Atlantic Treaty Organization 
(NATO) states, as well as several non-NATO partners, are already 
subject to concentrated Russian IO and they illustrate ongoing Russian 
IO techniques. Using information cartography, it is possible to map key 
Russian sources as part of Russian IO operations against a target 
state. These sources might include:

    <bullet>  Russian and target country think tanks
    <bullet>  foundations (e.g., Russkiy Mir)
    <bullet>  authorities (e.g., Rossotrudnichestvo)
    <bullet>  television stations (e.g. RT)
    <bullet>  pseudo-news agencies and multimedia services (e.g., 
Sputnik)
    <bullet>  cross-border social and religious groups
    <bullet>  social media and Internet trolls to challenge democratic 
values, divide Europe, gather domestic support, and create the 
perception of failed states in the EU's eastern neighborhood
    <bullet>  Russian regime--controlled companies and organizations
    <bullet>  Russian regime--funded political parties and other 
organizations in target country in particular and within the EU in 
general intended to undermine political cohesion
    <bullet>  Russian propaganda directly targeting journalists, 
politicians, and individuals in target countries in particular and the 
EU in general.

    Similarly, the mapping of target state receivers as part of Russian 
IO against the target state might include:

    <bullet>  national government organizations
    <bullet>  military
    <bullet>  intelligence community
    <bullet>  industry
    <bullet>  media
    <bullet>  independent think tanks
    <bullet>  academia
    <bullet>  citizen-organized groups.

    An effective information defensive strategy would be based on 
coordinated countering of information flows revealed by information 
maps. An effective strategy would include methods for establishing 
trust between elements of the defense force and the public. The 
strategy also will include mechanisms to detect the continuously 
evolving nature of the Russian IO threat and rapidly adapt in a 
coordinated fashion across all defense elements.
    Christopher Paul and Miriam Matthews of the RAND Corporation 
observe: ``Experimental research in psychology suggests that the 
features of the contemporary Russian propaganda model have the 
potential to be highly effective.'' \14\ They present a careful and 
concise analysis of relevant psychological research results that should 
inform any information defensive strategy. For example, they describe 
how propaganda can be used to distort perceptions of reality:
---------------------------------------------------------------------------
    \14\ Christopher Paul and Miriam Matthews, The Russian ``Firehose 
of Falsehood'' Propaganda Model, Santa Monica, Calif: RAND Corporation, 
PE-198-OSD, 2016.

    <bullet>  People are poor judges of true versus false information--
and they do not necessarily remember that particular information was 
false.
    <bullet>  Information overload leads people to take shortcuts in 
determining the trustworthiness of messages.
    <bullet>  Familiar themes or messages can be appealing even if they 
are false.
    <bullet>  Statements are more likely to be accepted if backed by 
evidence, even if that evidence is false.
    <bullet>  Peripheral cues--such as an appearance of objectivity--
can increase the credibility of propaganda. \15\
---------------------------------------------------------------------------
    \15\ Ibid.

    Here is what a typical offensive strategy against a target 
---------------------------------------------------------------------------
population might look like. It consists of several steps:

    1.  Take the population and break it down into communities, based 
on any number of criteria (e.g. hobbies, interests, politics, needs, 
concerns, etc.).

    2.  Determine who in each community is most susceptible to given 
types of messages.

    3.  Determine the social dynamics of communication and flow of 
ideas within each community.

    4.  Determine what narratives of different types dominate the 
conversation in each community.

    5.  Use all of the above to design and push a narrative likely to 
succeed in displacing a narrative unfavorable to you with one that is 
more favorable.

    6.  Use continual monitoring and interaction to determine the 
success of your effort and adjust in real time.

    Technologies currently exist that make it possible to perform each 
of these steps continuously and at a large scale. However, while 
current technologies support manual application of the type of 
psychological research results presented by Paul and Matthews, they do 
not fully automate it. That would be the next stage in technology 
development.
    These same technologies can be used for defensive purposes. For 
example, you could use the techniques for breaking down communities 
described above to detect adversary efforts to push a narrative and 
examine that narrative's content. The technology can help researchers 
focus while searching through massive amounts of social media data.
                               way ahead
    ``The massive explosion of behavioral data made available by the 
advent of social media has empowered researchers to make significant 
advances in our understanding of the dynamics of large groups online. 
However, as this field of research expands, opportunities multiply to 
use this understanding to forge powerful new techniques to shape the 
behavior and beliefs of people globally. These techniques can be tested 
and refined through the data-rich online spaces of platforms like 
Twitter, Facebook and, looking to the social multimedia future, 
Snapchat.
    Cognitive security (COGSEC) is a new field that focuses on this 
evolving frontier, suggesting that in the future, researchers, 
governments, social platforms, and private actors will be engaged in a 
continual arms race to influence--and protect from influence--large 
groups of users online. Although COGSEC emerges from social engineering 
and discussions of social deception in the computer security space, it 
differs in a number of important respects. First, whereas the focus in 
computer security is on the influence of a few individuals, COGSEC 
focuses on the exploitation of cognitive biases in large public groups. 
Second, while computer security focuses on deception as a means of 
compromising computer systems, COGSEC focuses on social influence as an 
end unto itself. Finally, COGSEC emphasizes formality and quantitative 
measurement, as distinct from the more qualitative discussions of 
social engineering in computer security.
    What is needed is a Center for Cognitive Security to create and 
apply the tools needed to discover and maintain fundamental models of 
our ever-changing information environment and to defend us in that 
environment both as individuals and collectively. The center will bring 
together experts working in areas such as cognitive science, computer 
science, engineering, social science, security, marketing, political 
campaigning, public policy, and psychology to develop a theoretical as 
well as an applied engineering methodology for managing the full 
spectrum of information environment security issues.'' \16\
---------------------------------------------------------------------------
    \16\ Rand Waltzman, ``Proposal for a Center for Cognitive 
Security,'' Information Professional Association, September 2015.
---------------------------------------------------------------------------
    The center should be nonprofit and housed in a nonprofit, 
nongovernmental organization that has international credibility and 
close ties with government, industry, academia, think tanks, and public 
interest groups internationally. It should have the following ongoing 
functions:

    1.  Bring together experts in a broad range of fields to develop 
Cognitive Security policies, strategies and implementation approaches.

    2.  Create clear and practical technology goals in support of the 
policies and strategies developed.
         i.  Identify and evaluate appropriate commercial technologies.
        ii.  Identify and evaluate relevant research results and 
develop and execute strategies for transitioning them into practice.

    3.  Work with end users from all communities to develop techniques, 
tactics and procedures for applying technologies identified and 
developed to policies and strategies.

    4.  Create a research agenda for policy and strategy formulation, 
implementation, and supporting technologies.

    5.  Develop education and training materials and conduct workshops 
and conferences.

    6.  Maintain a response team that will coordinate with all 
communities to identify influence campaigns and distribute alerts and 
warnings.

    This center should be wholly financed for its first five years by 
the U.S. Government until it can establish additional sources of 
funding from industry and other private support. The center should also 
have the authority and funding for grants and contracts, since, apart 
from a group of core personnel employed by the center, many of the 
participants will be experts based at their home institution. Although 
the Center as described would be a non-profit non-governmental 
organization, this funding model runs the risk of creating the 
appearance that the U.S. Government has undue influence over its 
activity. This could raise concerns about the credibility of the Center 
and the motives of the US Government. An alternative would be to seek a 
combination of private foundation funding and support from 
international non-partisan non-governmental organizations (e.g. the 
United Nations).
                               conclusion
    We have entered the age of mass customization of messaging, 
narrative, and persuasion. We need a strategy to counter Russian, as 
well as others, information operations and prepare the United States 
organizationally for long-term IO competition with a constantly 
changing set of adversaries large and small. It is said that where 
there is a will, there is a way. At this point, ways are available. The 
question is, do we have the will to use them?

    Senator Rounds. Thank you, sir.
    Mr. Watts, you may begin.

STATEMENT OF CLINT WATTS, ROBERT A. FOX FELLOW, FOREIGN POLICY 
                       RESEARCH INSTITUTE

    Mr. Watts. Mr. Chairman, members of the subcommittee, thank 
you for having me here today. My remarks will include some of 
what I talked about in my last session at the Senate Select 
Committee for Intelligence, but also my experience since 2005 
working on cyber-enabled influence operations for the U.S. 
Government in a variety of different capacities.
    Russia does five things that sets it apart from others in 
terms of influence.
    One, they create content across deliberate themes, 
political, social, and financial messages. But they hyper-
empower those with hacked materials that act as nuclear fuel 
for information atomic bombs. These nuclear-fueled bombs are 
what also power political groups and other profiteers in the 
social media space that further amplify their messages.
    Second, they push in unison from what appear to be many 
locations at the same time, using both covert and overt 
accounts and social media platforms.
    Third, they share their content through gray outlets and 
covert personas in a one-to-one and a one-to-many way, such 
that it looks like a conversation is much larger than it 
actually is.
    Fourth, they discuss themes over enduring period, driving 
the preferred message deep into the target audience. This 
collaborative discussion amongst unwitting Americans makes the 
seemingly improbable, false information seem true.
    Finally, they challenge their adversaries online for 
unnaturally long periods and at peculiar intervals, and push 
their political opponents down, whether they be politicians, 
media personalities, or just people that do not like Russian 
positions.
    If there is one thing that I could emphasize today it is 
that cyber influence is a human challenge, not a technical one. 
American obsession with social media has overlooked several 
types of real-world actors that help enable their operations 
online: Useful idiots such as unwitting Americans that do not 
realize that they are using Russian information for their 
political or partisan or even social issue purposes. Fellow 
travelers, these are personas that have been propped up and 
promoted across Europe and the United States for their 
alternative-right positions that are both anti-EU [European 
Union] and anti-NATO [North Atlantic Treaty Organization]. The 
last part is agent provocateurs, which are actual people that 
create incidents such that they can drive traffic online.
    If we look back to our experience with ISIS [Islamic State 
of Iraq and Syria], part of the reason ISIS's social media 
campaigns did so well is because they were taking ground and 
establishing a caliphate. The same happens in the Russian 
context.
    Each of these actors assist Russia's online efforts and 
have to be dealt with along with the cyber components of it.
    When it comes to Americans countering cyber-influence 
operations, when all is said and done, far more is said than 
none. We talk about it a lot, but we do fewer iterations than 
our Russian adversaries. When the U.S. has done something, it 
has not been effective. At worst, it has been 
counterproductive. That is due to the way we structure it.
    Despite spending hundreds of millions of dollars since 9/11 
on United States influence and information operations, we have 
seen the expansion of al Qaeda and the Islamic State.
    We have excessively focused on bureaucracy and digital tech 
tools. But at the same time, these social media monitoring 
tools have failed to counter al Qaeda. They did not detect the 
rise of ISIS, nor did they detect the interference of Russia in 
our election last year.
    America will only succeed in countering cyber influence by 
turning its current approaches upside down, focusing on the 
human aspect and using the methodology prioritizing tasks, 
talent, teamwork, and then technology, in that order.
    The first task we have to do is clearly map out the Russian 
scope of their influence effort, both on the ground and online, 
so we understand where those two come together.
    Second, American politicians, political organizations, and 
government officials must reaffirm their commitment to fact 
over fiction by regaining the trust of their constituents 
through accurate communications.
    Third, we must clearly articulate our policy with regards 
to the European Union, NATO, and immigration, which at present 
mirrors rather than counters the Kremlin's position.
    With regard to talent, U.S. attempts to recruit personnel 
excessively focus on security clearances and rudimentary 
training, thus screening out many top picks. A majority of top 
talent needed for cyber influence that reside in the private 
sector have no need for a security clearance, have likely used 
a controlled substance during their lifetime, and can probably 
work from home easier than they can from a government building. 
We need to enable that talent rather than screen it out.
    In terms of teamwork, U.S. Government influence efforts 
have fallen into the repeated trap of whole-of-government 
approaches. Moving forward, we need a task force specifically 
designated to deal with cyber influence and with the resources 
and personnel staffed to do it.
    Tech tool purchases have excessively focused on social 
media analytical packages, which I believe are the digital 
snake oil of the modern era. What we need instead are tools 
that help us empower our analysts, that are built by our 
analysts that our coders and programmers that are working with 
our analysts.
    Based on my experience, this is the most successful 
solution. We build actual custom applications that help us 
detect the threats that we are wanting to do. We have seen this 
in the hacking space. The NSA [National Security Agency] and 
other agencies have done it. We do not need big, enterprise-
wide solutions. We need to rent tools. We do not need to buy 
them.
    With regards to the private sector in the roughly 1 month 
since I last testified, they have made great strides in 
restoring the integrity of information by reaffirming the 
purity of their systems. Facebook, Google, even Wikipedia now 
have all launched efforts that I applaud and think will make a 
big difference.
    Twitter is the remaining one that I am waiting to hear 
from, and Twitter is the key cog that is left. Twitter's 
actions, if they take them on parallel with Facebook and Google 
and the others, can help shape the Russian influence of the 
French and the German elections going into summer.
    In conclusion, my colleagues and I identified, tracked, and 
traced, the rise of Russian influence with home computers and a 
credit card. We can do this if we focus on the humans first, 
make them the priority, figure out the strategy we want to 
implement, and back them with the best technology, all of which 
America has at its doorstep.
    Thank you very much.
    [The prepared statement of Mr. Watts follows:]

                   Prepared Statement by Clint Watts
    Mr. Chairman, Members of the Committee. Thank you for inviting me 
today and for furthering the discussion of cyber-enabled influence. My 
remarks today will further expand on my previous testimony to the 
Senate Select Committee on Intelligence on March 30, 2017 where I 
detailed the research Andrew Weisburd, J.M. Berger and I published 
regarding Russian attempts to harm our democracy via social media 
influence. \1\ I'll add further to this discussion and will also 
provide my perspective having worked on cyber-enabled influence 
operations and supporting programs for the United States Government 
dating back to 2005. Having served in these Western counterterrorism 
programs, I believe there are many lessons we should learn from and not 
repeat in future efforts to fight and win America's information wars.
---------------------------------------------------------------------------
    \1\ Andrew Weisburd, Clint Watts and JM Berger (6 November 2016) 
Trolling For Trump: How Russia Is Trying To Destroy Our Democracy. War 
On The Rocks. Available at: https://warontherocks.com/2016/11/trolling-
or-trump-how-russia-is-trying-to-destroy-our-democracy/
---------------------------------------------------------------------------
1) How does Russian nation state influence via social media differ from 
        other influence efforts on social media?
    As I discussed on March 30, 2017, \2\ Russia, over the past three 
years, has conducted the most successful influence campaign in history 
using the Internet and more importantly social media to access and 
manipulate foreign audiences. Russia and other nation states are not 
the only influencers in social media. Profiteers pushing false or 
salacious stories for ad revenue, political campaigns running 
advertisements and satirists looking for laughs also seek to influence 
audiences during elections, but their online behavior manifests 
differently from that of Russia. Russia's hacking may be covert, but 
their employment of compromat ultimately reveals their overt influence 
campaigns. Furthermore, Russian influence performs a full range of 
actions to achieve their objectives that distinguish them from other 
influence efforts. \3\
---------------------------------------------------------------------------
    \2\ Clint Watts (30 March 2017) Testimony to U.S. Senate Select 
Committee on Intelligence. ``Russia and 2016 Elections.'' Available at: 
https://www.c-span.org/video/?426227-1/senate-intelligence-panel-
warned-russians-play-sides.
    \3\ See Clint Watts and Andrew Weisburd (13 December 2016) How 
Russia Wins An Election. Politico. Available at: http://
www.politico.com/magazine/story/2016/12/how-russia-wins-an-election-
214524.

    <bullet>  Create, Push, Share, Discuss, Challenge (CPSDC)--
Effective State Sponsors Do All Of These In The Influence Space, Others 
---------------------------------------------------------------------------
Do Only Some

      <bullet>  Create--Russia uses their state sponsored media outlets 
and associated conspiratorial websites to create propaganda across 
political, social, financial and calamitous message themes. This 
content, much of which is fake news or manipulated truths, provides 
information missiles tailored for specific portions of an electorate 
they seek to influence. More importantly, Russia's hacking and theft of 
secrets provides the nuclear fuel for information atomic bombs 
delivered by their state sponsored media outlets and covert personas. 
This information fuels not only their state sponsored outlets but arms 
the click-bait content development of profiteers and political parties 
who further amplify Russia's narratives amongst Western voters.

      <bullet>  Push--Unlike other fake news dissemination, Russia 
synchronizes the push of their propaganda across multiple outlets and 
personas. Using sockpuppets and automated bots appearing to be 
stationed around the world, Russia simultaneously amplifies narratives 
in such a way to grab mainstream media attention. Many other bots push 
false and misleading stories for profit or politics but their patterns 
lack the synchronization and repeated delivery of pro-Russian content 
and usually follow rather than lead in the dissemination of Russian 
conspiracies.

      <bullet>  Share--Like-minded supporters, aggregators (gray 
accounts) and covert personas (black accounts) share coordinated pushes 
of Russian propaganda with key nodes on a one-to-one or one-to-many 
basis. This coordinated sharing seeks to further amplify and cement 
influential content and their themes amongst a targeted set of voters. 
Their sharing often involves content appealing to either the left or 
right side of the political spectrum as well as any anti-government or 
social issue. This widespread targeting often varies from profiteers 
and political propagandists that seek a high rate of consumption with a 
more narrow target audience.

      <bullet>  Discuss--Russian overt supporters and covert accounts, 
unlike other digital influence efforts, discuss Russian themes over an 
enduring period driving the preferred message deep into their target 
audience. This collaborative discussion amongst unwitting Americans 
makes seemingly improbable information more believable. Comparatively, 
bots and campaigns from profiteers, satirists and political 
propagandists more frequently appear as ``fire-and-forget'' messaging 
operations.

      <bullet>  Challenge--Heated social media debates during election 
season have been and will remain commonplace. But Russian influence 
operations directly challenge their adversaries for unnaturally long 
periods and at peculiar intervals. Russian covert personas heckle and 
push chosen themes against political opponents, media personalities and 
subject matter experts to erode target audience support Russian 
adversaries and their political positions. These challenges sometimes 
provide the Kremlin the added benefit of diminishing Russian opponent 
social media use. Other social media influence efforts will not go to 
such lengths as this well resourced, fully committed Advanced 
Persistent Threat (APT).

    <bullet>  Full Spectrum Influence Operations: Synchronization of 
White, Gray and Black Efforts--Russian cyber enabled influence 
operations demonstrate never before seen synchronization of Active 
Measures. Content created by white outlets (RT and Sputnik News) 
promoting the release of compromising material will magically generate 
manipulated truths and falsehoods from conspiratorial websites 
promoting Russian foreign policy positions, Kremlin preferred 
candidates or attacking Russian opponents. Hackers, hecklers and 
honeypots rapidly extend information campaigns amongst foreign 
audiences. As a comparison, the full spectrum synchronization, scale, 
repetition and speed of Russia's cyber-enabled information operations 
far outperform the Islamic State's recently successful terrorism 
propaganda campaigns or any other electoral campaign seen to date.

    <bullet>  Cyber-enabled Influence Thrives When Paired with Physical 
Actors and Their Actions--American obsession with social media has 
overlooked the real world actors assisting Russian influence operations 
in cyber space, specifically ``Useful Idiots'', ``Fellow Travellers'' 
and ``Agent Provocateurs''.

      <bullet>  ``Useful Idiots''--Meddling in the United States and 
now European elections has been accentuated by Russian cultivation and 
exploitation of ``Useful Idiots''--a Soviet era term referring to 
unwitting American politicians, political groups and government 
representatives who further amplify Russian influence amongst Western 
populaces by utilizing Russian compromat and resulting themes.

      <bullet>  ``Fellow Travellers''--In some cases, Russia has 
curried the favor of ``Fellow Travellers''--a Soviet term referring to 
individuals ideologically sympathetic to Russia's anti-EU, anti-NATO 
and anti-immigration ideology. A cast of alternative right characters 
across Europe and America now openly push Russia's agenda both on-the-
ground and online accelerating the spread of Russia's cyber-enabled 
influence operations.

      <bullet>  ``Agent Provocateurs''--Ever more dangerous may be 
Russia's renewed placement and use of ``Agent Provocateurs''--Russian 
agents or manipulated political supporters who commit or entice others 
to commit illegal, surreptitious acts to discredit opponent political 
groups and power falsehoods in cyber space. Shots fired in a 
Washington, DC pizza parlor by an American who fell victim to a fake 
news campaign called #PizzaGate demonstrate the potential for cyber-
enabled influence to result in real world consequences. \4\ While this 
campaign cannot be directly linked to Russia, the Kremlin currently has 
the capability to foment, amplify, and through covert social media 
accounts, encourage Americans to undertake actions either knowingly or 
unknowingly as Agent Provocatuers.
---------------------------------------------------------------------------
    \4\ Amy Davidson (5 December 2016) ``The Age of Donald Trump and 
Pizzagate.'' The New Yorker. Available at: http://www.newyorker.com/
news/amy-davidson/the-age-of-donald-trump-and-pizzagate

    <bullet>  Each of these actors assists Russia's online efforts to 
divide Western electorates across political, social and ethnic lines 
while maintaining a degree of ``plausible deniability'' with regards to 
Kremlin interventions. In general, Russian influence operations 
targeting closer to Moscow and further from Washington, DC will utilize 
greater quantities and more advanced levels of human operatives to 
power cyber-influence operations. Russia's Crimean campaign and their 
links to a coup in Montenegro demonstrate the blend of real world and 
cyber influence they can utilize to win over target audiences. \5\ \6\ 
The physical station or promotion of gray media outlets and overt 
Russian supporters in Eastern Europe were essential to their influence 
of the United States Presidential election and sustaining ``plausible 
deniability''. It's important to note that America is not immune to 
infiltration either, physically or virtually. In addition to the Cold 
War history of Soviet agents recruiting Americans for Active Measures 
purposes, the recently released dossier gathered by ex MI6 agent Chris 
Steele alleges on page 8 that Russia used, ``Russian migr & associated 
offensive cyber operatives in United States'' during their recent 
campaign to influence the United States election. While still 
unverified, if true, employment of such agents of influence in the 
United States would provide further plausible deniability and 
provocation capability for Russian cyber-enabled influence operations. 
\7\
---------------------------------------------------------------------------
    \5\ Mike Mariani (28 March 2017) ``Is Trump's Chaos Tornado A Move 
From The Kremlin's Playbook?'' Vanity Fair. Available at: http://
www.vanityfair.com/news/2017/03/is-trumps-chaos-a-move-from-the-
kremlins-playbook
    \6\ Bellingcat (25 April 2017) ``Montenegro Coup Suspect Linked to 
Russian-backed ``Ultranationalist'' Organization.'' Available at: 
https://www.bellingcat.com/news/uk-and-europe/2017/04/25/montenegro-
coup-suspect-linked-russian-backed-ultranationalist-organisation/
    \7\ See Buzzfeed release of Chris Steele unverified dossier at the 
following link: https://www.documentcloud.org/documents/3259984-Trump-
Intelligence-Allegations.html

2) How can the U.S. Government counter cyber-enabled influence 
        operations?
    When it comes to America countering cyber-enabled influence 
operations, when all is said and done, far more is said than done. When 
the U.S. has done something to date, at best, it has been ineffective, 
and at worst, it has been counterproductive. Despite spending hundreds 
of millions of dollars since 9/11, United States influence operations 
have made little or no progress in countering al Qaeda, its spawn the 
Islamic State or any connected jihadist threat group radicalizing and 
recruiting via social media.
    Policymakers and strategists should take note of this failure 
before rapidly plunging into an information battle with state sponsored 
cyber-enabled influence operations coupled with widespread hacking 
operations--a far more complex threat than any previous terrorist actor 
we've encountered. Thus far, United States cyber influence has been 
excessively focused on bureaucracy and expensive technology tools--
social media monitoring systems that have failed to detect the Arab 
Spring, the rise of ISIS, the Islamic State's taking of Mosul and most 
recently Russia's influence of the United States election. America will 
only succeed in countering Russian influence by turning its current 
approaches upside down, clearly determining what it seeks to achieve 
with its counter influence strategy and then harnessing top talent 
empowered rather than shackled by technology.

      <bullet>  Task--Witnessing the frightening possibility of Russian 
interference in the recent United States Presidential election, 
American policy makers have immediately called to counter Russian cyber 
influence. But the United States should take pause in rushing into such 
efforts. The United States and Europe lack a firm understanding of what 
is currently taking place. The United States should begin by clearly 
mapping out the purpose and scope of Russian cyber influence methods. 
Second, American politicians, political organizations and government 
officials must reaffirm their commitment to fact over fiction by 
regaining the trust of their constituents through accurate 
communications. They must also end their use of Russian compromat 
stolen from American citizens' private communications as ammunition in 
political contests. Third, the United States must clearly articulate 
its policy with regards to the European Union, NATO and immigration, 
which, at present, mirrors rather than counters that of the Kremlin. 
Only after these three actions have been completed, can the United 
States Government undertake efforts to meet the challenge of Russian 
information warfare through its agencies as I detailed during my 
previous testimony.

      <bullet>  Talent--Russia's dominance in cyber-enabled influence 
operations arises not from their employment of sophisticated 
technology, but through the employment of top talent. Actual humans, 
not artificial intelligence, achieved Russia's recent success in 
information warfare. Rather than developing cyber operatives 
internally, Russia leverages an asymmetric advantage by which they 
coopt, compromise or coerce components of Russia's cyber criminal 
underground. Russia deliberately brings select individuals into their 
ranks, such as those GRU leaders and proxies designated in the 29 
December 2016 United States sanctions. Others in Russia with access to 
sophisticated malware, hacking techniques or botnets are compelled to 
act on behalf of the Kremlin.

           The U.S. has top talent for cyber influence but will be 
unlikely and unable to leverage it against its adversaries. The U.S. 
focuses excessively on technologists failing to blend them with needed 
information campaign tacticians and threat analysts. Even further, U.S. 
agency attempts to recruit cyber and influence operation personnel 
excessively focus on security clearances and rudimentary training thus 
screening out many top picks. Those few that can pass these screening 
criteria are placed in restrictive information environments deep inside 
government buildings and limited to a narrow set of tools. The end 
result is a lesser-qualified cyber-influence cadre with limited 
capability relying on outside contractors to read, collate and parse 
open source information from the Internet on their behalf. The majority 
of the top talent needed for cyber-enabled influence resides in the 
private sector, has no need for a security clearance, has likely used a 
controlled substance during their lifetime and can probably work from 
home easier and more successfully than they could from a government 
building.

      <bullet>  Teamwork--Russia's cyber-enabled influence operations 
excel because they seamlessly integrate cyber operations, influence 
efforts, intelligence operatives and diplomats into a cohesive 
strategy. Russia doesn't obsess over their bureaucracy and employs 
competing and even overlapping efforts at times to win their 
objectives.

           Meanwhile, U.S. Government counter influence efforts have 
fallen into the repeated trap of pursuing bureaucratic whole-of-
government approaches. Whether it is terror groups or nation states, 
these approaches assign tangential tasks to competing bureaucratic 
entities focused on their primary mission more than countering cyber 
influence. Whole-of-government approaches to countering cyber influence 
assign no responsible entity with the authority and needed resources to 
tackle our country's cyber adversaries. Moving forward, a Task Force 
led by a single agency must be created to counter the rise of Russian 
cyber-enabled operations. Threat based analysis rather than data 
analytics will be essential in meeting the challenge of Russian cyber 
influence operations. This common operational picture must be shared 
with a unified task force, not shared piecemeal across a sprawling 
interagency.

      <bullet>  Technology--Over more than a decade, I've repeatedly 
observed the U.S. buying technology tools in the cyber-influence space 
for problems they don't fully understand. These tech tool purchases 
have excessively focused on social media analytical packages producing 
an incomprehensible array of charts depicting connected dots with 
different colored lines. Many of these technology products represent 
nothing more than modern snake oil for the digital age. They may work 
well for Internet marketing but routinely muddy the waters for 
understanding cyber influence and the bad actors hiding amongst social 
media storm.

           Detecting cyber influence operations requires the 
identification of specific needles, amongst stacks of needles hidden in 
massive haystacks. These needles are cyber hackers and influencers 
seeking to hide their hand in the social media universe. Based on my 
experience, the most successful technology for identifying cyber and 
influence actors comes from talented analysts that first 
comprehensively identify threat actor intentions and techniques and 
then build automated applications specifically tailored to detect these 
actors. The U.S. Government should not buy these technical tools nor 
seek to build expensive, enterprise-wide solutions for cyber-influence 
analytics that rapidly become outdated and obsolete. Instead, top 
talent should be allowed to nimbly purchase or rent the latest and best 
tools on the market for whatever current or emerging social media 
platforms or hacker malware kits arise.

3) What can the public and private sector do to counter influence 
        operations?
    I've already outlined my recommendations for United States 
Government actions to thwart Russia's Active Measures online in my 
previous testimony on 30 March 2017. \8\ Social media companies and 
mainstream media outlets must restore the integrity of information by 
reaffirming the purity of their systems. In the roughly one month since 
I last testified however, the private sector has made significant 
advances in this regard. Facebook has led the way, continuing their 
efforts to reduce fake news distribution and removing up to 30,000 
false accounts from its system just this past week. Google has added a 
fact checking function to their search engine for news stories and 
further refined its search algorithm to sideline false and misleading 
information. Wikipedia launched a crowd-funded effort to fight fake 
news this week. The key remaining private sector participant is 
Twitter, as their platform remains an essential networking and 
dissemination vector for cyber-enabled influence operations. Their 
participation in fighting fake news and nefarious cyber influence will 
be essential. I hope they will follow the efforts of other social media 
platforms as their identification and elimination of fake news 
spreading bots and false accounts may provide a critical block to 
Russian manipulation and influence of the upcoming French and German 
elections.
---------------------------------------------------------------------------
    \8\ Clint Watts. ``Russia's Info War on the U.S. Started in 2014'' 
The Daily Beast. Available at: http://www.thedailybeast.com/articles/
2017/03/30/russia-s-info-war-on-the-u-s-started-in-2014.html
---------------------------------------------------------------------------
    In conclusion, my colleagues and I identified, tracked and traced 
the rise of Russian influence operations on social media with home 
computers and some credit cards. While cyber-influence operations may 
appear highly technical in execution, they are very human in design and 
implementation. Technology and money will not be the challenge for 
America in countering Russia's online Active Measures; it will be 
humans and the bureaucracies America has created that prevent our 
country from employing its most talented cyber savants against the 
greatest enemies to our democracy.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Senator Rounds. Thank you, sir.
    I will begin the questions, and we will move around through 
here, 5 minutes each on questions.
    I do have a specific question for Mr. Inglis.
    You were a member of the Defense Science Board Task Force 
on Cyber Deterrence, and we have had an opportunity to review 
both the classified and the unclassified report.
    As I mentioned in my opening remarks, the Task Force 
determined that the deterrence of Russian and China in 
cyberspace was urgently needed because, for at least the next 
decade, the offensive cyber capabilities of our most capable 
adversaries are likely to far exceed the United States' ability 
to defend key critical infrastructure.
    I am just curious, in your opinion, as a member of the 
board, can cyber deterrence apply to cyber-enabled information 
operation campaigns like that which we experienced last year? 
If it can, what unique challenges does this gray zone warfare, 
like information operations, pose for deterrence frameworks?
    Mr. Inglis. Thank you for the question. I begin by saying, 
I was privileged to serve on that panel, and the comments I am 
about to make are derived from my experience on that panel, but 
not on behalf of that panel.
    I would say that I do think that it can apply. It has some 
natural limits. There are, of course, deterrents of two kinds 
in classic deterrence theory. The first is deterrence by 
denial, that you simply deny your adversary an opportunity to 
careen into your well-laid plans or your forward momentum 
through a variety of methods. The second is deterrence by cost 
imposition. I think both of those could apply here, but I think 
the cost imposition probably will be the weaker of the two.
    But it is interesting to take a look. There was a recent 
op-ed--I believe it was in Politico.com--about why Finland is 
not concerned about Russian interference in their election. It 
is not because Russia is not interfering in their election. It 
is because of two things.
    One, Finland actually well understands the nature of Russia 
and what they do, and the means and methods by which they do 
it. It is easier for them to identify, from citizens up to 
leaders, what the Russians are up to and what they are up to.
    But more importantly, Finland has defined from the top down 
their own message, their own strategy, their own strategic 
gains. Then they take great pains to communicate that latterly, 
horizontally, and vertically, such that it is very hard to 
careen into that message. I think that is deterrence by denial 
in the information war.
    Therefore, I do think that that theory can help us in this 
space.
    Senator Rounds. Thank you.
    For all of you, I would just like to work my way down the 
line here. I will ask each of you to respond.
    Much of the Russian activity in the run-up to the United 
States presidential election appears to have been enabled by 
loose or outdated cybersecurity controls. What can the 
government do to better protect its networks and the 
information residing therein?
    Some of the data breaches occurred, as we all know, on 
nongovernmental systems that are not considered part of DHS's 
[Department of Homeland Security] 16 designated critical 
infrastructure sectors. How can the government encourage these 
private sector network owners and operators to better protect 
their networks?
    We had both, those that looked both in government and out 
of the government.
    I will begin with you, sir, if you would like, and we will 
work our way back down the line.
    Mr. Watts. I think the big challenge is that most of this 
happens outside government networks, so even if you are a 
government official or a former government official, they are 
going to hit you when you are not in your workspace.
    That is partly because attacking the government network can 
be seen as an act of war, whereas it is more in the gray zone 
if they hit you on your personal network. That is a deliberate 
strategy they pursue.
    I think the other thing is the controls developed in the 
private sector are much stronger than we ever see in the 
government sector. For example, whenever my colleagues and I 
write about Russia, we get attacked on our Gmail accounts. But 
Gmail not only notifies us that we are being attacked but says 
that you are being targeted by a foreign nation, which helps us 
with our research, ironically. We know that we are on the right 
track because they tell us that we are on the right track.
    But I think those controls, working with private sector and 
not trying to create them from the inside--we have a tendency 
in government to say we need to build a thing to do it. It is 
figuring out how we work with the private sector, whether it is 
in the financial or even in the social media space--they tend 
to develop these solutions quicker--and how we migrate those 
back, number one, into the government, and even to government 
employees and officials, our people that are being targeted, so 
they have the best and most sophisticated defenses that are out 
there.
    Senator Rounds. Thank you.
    Dr. Waltzman?
    Dr. Waltzman. I think one of the most important things, 
actually, when it comes to private industry, where I would 
agree that this is where we need to really focus our efforts, 
is in getting people to cooperate with each other. This is a 
really huge problem.
    How do you get people to share problems, to say this is 
what is happening to me now, this is what happened to me 
yesterday, what is happening to you? Of course, people are 
reluctant to admit that they have been attacked, that they 
suffered a big loss. They do not want their shareholders to 
find out. Something that we could do to try to encourage that 
kind of cooperation I think would be very important.
    Senator Rounds. Mr. Lumpkin?
    Mr. Lumpkin. There are technical issues to prevent access 
by our adversaries to our networks. One of the big challenges 
we have is the component of training, the training of people 
who are using these networks to make sure they do not avail 
themselves to phishing operations and provide access to the 
networks by our adversaries unwittingly. My experience is the 
protocols are in place, but it is usually, when there is access 
achieved by our adversaries, it is because the human factor was 
not in compliance for what needed to be done.
    I think it is about enforcement of the rules and holding 
people accountable who do not live up to the expectations of 
the rules.
    Mr. Inglis. I subscribe to all that has been said so far. I 
would just simply emphasize again that the activity undertaken 
by Facebook, Google, and some others to essentially try to 
create authoritative corroboration of what might otherwise be 
disparate, diverse news sets is very important in this space. 
Most of that takes place in the private sector.
    The government's role can be to perhaps create a venue for 
that, some space for that, and to collaborate with other like-
minded governments to see if we cannot make that run across 
international boundaries in ways that might not be natural.
    Senator Rounds. Thank you.
    Senator Nelson?
    Senator Nelson. Thank you, Mr. Chairman.
    The Russians, be it the Soviet Union or today, have been 
doing this kind of stuff for a long time. But with the new 
tools that you all have talked about, we are seeing a different 
and effective kind, where you can actually have the intent of 
affecting the outcome of an election upon which a democracy 
absolutely depends that it is protected, as well as the 
confidence in that election is protected.
    Now, that is going on right now. It is going on in France, 
and it has been going on and will go on in Germany.
    If this is a new normal, what do we do to inoculate the 
public with call it resilience against this kind of campaign 
that ultimately ends up being misinformation or call it fake 
news or whatever you want to call it? What do we do in the 
future?
    Mr. Lumpkin. As I look at this problem, it is about the 
credibility of the source. When I look at the information 
space, and I see the inundation, what I call information 
toxicity that I feel every day of so much information coming 
in, it is about finding those sources that have proven to be 
credible for me.
    I think that translates across the spectrum, going back to 
what Clint Watts was talking about earlier. You have to make 
sure, as a U.S. Government, our information is accurate and 
that we are a reliable source of information for consumption of 
the American people as well as international community as well.
    I think that is a good first step in making sure that the 
American people have a good place to go to get information, 
which has not always been the case.
    Senator Nelson. What is that source?
    Mr. Lumpkin. As the information environment has changed, 
our organization of how we manage information as the U.S. 
Government has not changed. Again, this goes back to my opening 
comments of public diplomacy, public affairs, and information 
warfare. Each one is governed by different authorities, has 
different people giving the message.
    But those three things in a hyperconnected world are not 
coordinated. What an embassy may say abroad can be consumed by 
the U.S. audience at real time. What is said here domestically 
can have impacts overseas real time. We have to find a way to 
synchronize our overall messaging as a U.S. Government, which 
we have not done to date.
    Senator Nelson. All right. But I am thinking something that 
the government cannot synchronize, and that is the rough and 
tumble of an election.
    Mr. Inglis?
    Mr. Inglis. I was not going to address the rough-and-tumble 
of an election, but we can come back to that. I was going to 
support the argument and say that it is very difficult, given 
what was suggested, and I think that is right, if you go 
second. You need to go first.
    You need to actually establish the momentum, the forward 
momentum, of a credible idea, a credible source, the 
corroboration of that source, before you then are chasing the 
allegations or the vilifying data that might otherwise contest 
for the time and space.
    Senator Nelson. Do we, as a government, need to make sure 
that everybody in America understands that Russia Today is a 
fake site?
    Mr. Inglis. I do not think it is necessarily a fake site. 
It is a source of data. It is not one and the same as 
information or truth. Therefore, it is a useful influence on 
how we think about the world. It might, in fact, convey to us 
Russia's perception, but that is not one and the same as an 
articulation of our values or an articulation of what is true.
    But if we get on message, and it is not necessarily going 
to be a monolithic message, because we are a set of diverse 
people--that is a feature here. But if we are on message and we 
try to actually talk about that in a positive, forward view, 
and, at the same time, we educate our people, the people who 
essentially live in that swirl of information, about the nature 
of information war and what their duties are to try to figure 
out whether they actually have a grasp on a fact, the sum of 
those two things I think will make a difference.
    Government can lead in that. The private sector already is.
    Senator Nelson. Translate what you just said with an 
example. An obvious fake news story has been put out by Russia 
Today. Now how is that----
    Mr. Inglis. Let me give you a very personal example.
    Senator Nelson. Please.
    Mr. Inglis. I have testified many times before this group 
and others on the summer of 2013, trying to explain what NSA 
was really doing with the----
    Senator Nelson. What?
    Mr. Inglis. What the National Security Agency was really 
doing with the telephone metadata or other such programs.
    Senator Nelson. Right.
    Mr. Inglis. The challenge there was not that I think we 
were found in the wrong place. It was that we had not told a 
story that people could say that there is actually a true story 
associated with this. We then spent the summer and some time 
since chasing the allegations, which were not one and the same 
as revelations.
    If we had gone first, if we had essentially said, here is 
what we do, here is how we do it, and essentially created a 
backdrop such that when fake news or an alternative version of 
that, Edward Snowden's version of that, came into view, people 
would have said: No, no, I have actually had a chance to think 
my way through this. I understand what they do. I may not be 
comfortable with that policy, but I have actually already heard 
the story from credible, competent sources.
    But we went second, and that, therefore, made it all the 
more difficult for us to put that back in the box.
    Senator Nelson. Okay, I agree with that. But you try to 
explain metadata and people do not understand that.
    Mr. Inglis. I took care not to in the moment that just past 
because that is less the issue than it is about, is the 
government actually exercising some national security 
authorities?
    Senator Nelson. Well, what folks needed to understand is 
that metadata was business records of phone calls.
    Mr. Inglis. Of course, they did. But you start with 
principles and say, look, the government, in pursuit of 
national security but not at the detriment, not while holding 
liberty at risk, exercises certain authorities. We are 
collecting data.
    People pause and say, okay, let me think about that. What 
kind of data?
    You have essentially set the stage by saying what the value 
proposition is upfront. Then you can have a discussion on the 
details.
    We too often lead with the details, which people are left 
to imagine what the value proposition that rides on top of that 
is, and that then leads to discord.
    Mr. Watts. When I testified last time, we had put forth the 
idea of an information consumer reports in social media, 
essentially a rating agency that sits apart from the government 
that rates all media outlets over time and gives them a score.
    That score is based on the accuracy of reporting, many 
variables like you used to remember from the Consumer Reports 
magazine. It is openly available by that rating agency, and it 
is put next to every story that pops up on Facebook, Google, 
Twitter, whatever it might be, such that the consumer, if they 
want to read about aliens invading the United States, they can, 
but they know that the accuracy of that is about 10 percent 
from that outlet. They then have the decision ability to decide 
what they want to consume.
    Google and Facebook have already started to move in this 
way and have already done fact-checking, Snopes kinds of things 
that say that this is true or false, and are building that in.
    I think they will get to that point where, essentially, you 
are giving people a nutrition label for information. If they 
want to eat a 10,000-calorie meal, then they can go ahead and 
do that. But they know why they are fat, and they know why they 
are dumb, and they know that the information they are consuming 
is not good for them.
    Senator Nelson. What is your rating of the National 
Enquirer?
    Mr. Watts. The National Enquirer would be extremely low. I 
would put RT at 70 percent, just by my examination and some 
research.
    Senator Nelson. Seventy percent accuracy?
    Mr. Watts. Seventy percent true, 20 percent manipulated 
truth, 10 percent false. That is what I would assess it at over 
time.
    It is actually not that much different than some mainstream 
outlets that would be rated. That rating system would help 
mainstream outlets as well. They would have to improve so that 
their rating gets higher. That check goes across everybody.
    If an outlet pops up and 5 days later they are putting out 
fake news with high traffic, people would know, oh, this is an 
outlet that just popped up and it is probably propaganda.
    The two things the government can do to stop that same sort 
of rumint, or rumor intelligence, is put up a site at both the 
State Department and the Department of Homeland Security. Any 
propaganda that is put out by a foreign nation that directly 
has a connection to the U.S. Government--for example, the fake 
Incirlik attack last summer in Turkey that the Russian RT and 
Sputnik news tried to promote, the State Department immediately 
comes up and says here is live footage from Incirlik Air Base. 
There is no siege going on. We have extra security in place 
because the Chairman of the Joint Chiefs is coming tomorrow.
    That is a technique that actually came out of 
counterterrorism in Iraq from 10 years ago where we had rapid 
response teams that would go out when there was terrorist 
propaganda. We would say: Here is live footage of it. It did 
not happen. Here is what was actually at the scene.
    DHS needs to do that as well, because sometimes state 
actors will try to influence the public to think that crises in 
the United States are bigger than they are. If there is an 
airport evacuation, that is ripe material for cyber influence 
by Russia, to amplify that and create concern and panic in the 
United States.
    We need both a domestic component of it and an 
international foreign policy component of it.
    Those three things combined, I think the private sector 
will lead in this, and they are already doing a lot for it, 
will have a huge impact on that false news being spread around 
the Internet.
    Senator Rounds. Senator Blumenthal?
    Senator Blumenthal. Thanks, Mr. Chairman. Thanks for having 
this hearing.
    Thank you all for being here and for your great work. We 
are only going to touch the surface of this very complex and 
profoundly significant topic.
    I am just a lawyer. I do not have the technical expertise 
that you do. Our system of laws typically relies on what judges 
have called the marketplace of ideas to enable the truth to 
win. There are all kinds of sayings in the law about how 
sunlight is the best disinfectant, about how the cure for lack 
of truth is more truth, which perhaps is an outdated view about 
what the modern information world looks like.
    Mark Twain may have had it right when he said, I am going 
to butcher this quote, but, falsehood is halfway around the 
world by the time the truth gets out of bed. Falsehood is so 
much more easily spread because sometimes it is so much more 
interesting and has the immediacy of a lie in grabbing people's 
attention, where the truth is often mundane and boring.
    I want to go to a point that you made, Mr. Watts, looking 
at your testimony. I am going to quote. ``Witnessing the 
frightening possibility of Russian interference in the recent 
United States presidential election,'' and you go on.
    Is there any doubt in your mind that the Russians did, in 
fact, interfere? It was more than a frightening possibility. 
They did interfere. I think the intelligence community is 
fairly unanimous on that point.
    Mr. Watts. Yes, that is correct. What I was trying to 
illustrate is that this possibility got us to focus too heavily 
on the technological aspects and the social media aspects of 
it.
    If you remember in the lead up to the election, we were 
obsessed about machines being hacked or votes being changed. 
That was deliberate. That is one of the Russian influence 
lines, was, ``Oh, by the way, even if the election comes out, 
the election is rigged. There is voter fraud rampant. You 
cannot trust anything.''
    That is about active measures. That is about eroding 
confidence in democracy. Essentially, even when an elected 
official wins, you do not trust them to be your leader. You 
think they got there under false pretenses.
    Senator Blumenthal. That is what one of the candidates was 
saying too, correct?
    Mr. Watts. Correct. We have seen that repeatedly, and you 
are going to see that in other elections around the world.
    Senator Blumenthal. Which leads to the suspicion, and there 
is increasing proof of it, that maybe Trump associates were 
involved in some way in either supporting or aiding or 
colluding with these Russian efforts.
    I am not asking you to reach a conclusion, but that is 
under investigation now by the FBI [Federal Bureau of 
Investigation], correct? All of the three kinds of individuals, 
the fellow travelers, the friendly idiots, and agent 
provocateurs, may have been involved, correct, in this Russian 
effort?
    Mr. Watts. Yes. Cyber influence, we keep separating out the 
technical and the human. Cyber influence is most effective when 
you have humans also empowering them, human-empowered action.
    You have seen this repeatedly across all elections, which 
is they either target their propaganda so they can arm certain 
campaigns against another campaign. That is what hacking is 
about. ``I am going to target some people with hacks, such that 
I have secrets that I can arm their propaganda as well.'' That 
is the amplification of it.
    The other part is they are picking candidates and backing 
them either by supporting them or even on the ground through 
political parties and potentially funding across Europe.
    The last part is, if they do not have the right actions to 
promote on social media, they will create them. Incirlik is a 
half-baked attempt. There is a small protest. They turned it 
into a terrorist attack. If there is not something to drive an 
election, they might create it. A tactic of classic active 
measures is, if I need a terrorist attack to foment an audience 
to swing an election a certain way, maybe the way you saw in 
Spain in 2004, or more recently even in France, they might 
create those actions such that they can have that in cyberspace 
in their influence network to power the candidate they want to 
move in one direction or the other.
    Senator Blumenthal. In terms of recruiting the talent, 
since the human factor, as you say, is so important--and I am 
assuming that others on the panel agree that attracting 
qualified people in this effort is really critically important. 
We can buy all the machinery will want, but the talent is 
attracted to other venues and corporations where they often are 
paid more.
    I think this effort is worth a whole study, and a very 
urgent one, in and of itself. I have heard our military leaders 
sitting where you are saying we need to recruit these folks, 
and we are having trouble doing it because there is a limited 
pool and it pays a lot more to go work for Google or whatever 
Silicon Valley corporation, startups, and so forth.
    Mr. Watts. I do not know that I always buy into the money 
aspect of it, to be honest. I work in the private sector as a 
consultant a lot. The work is really boring compared to being 
in the government. You might get paid more, but, to be honest 
with you, you are not going to be too excited at the end of the 
day.
    There are motivated Americans out there that are 
incentivized by more than just money. Maybe they have gone and 
made a lot of money and they want to reinvest in their country. 
I think right now there is an upsurge of people that are not 
excited about Russia possibly manipulating people's thoughts 
and minds and views in a way that is anti-American. I think 
there are a lot of people who would want to join in.
    The problem is, when we bring those people into the 
government space, we take everything that made them great or 
gave them the space to be great away from them, and then we say 
we want you to be like a soldier and a private, and you need to 
do all these other things and take 37,000 hours of mandatory 
training so that you can operate this computer which does not 
have the software you have at your house.
    That is what even the most inspired Americans out there who 
are savvy in tech look at--I know I look at it. I say, man, I 
can do a lot more outside the government than I can do inside.
    Until we give them the space to be the tech savants that 
they are, they are never going to want to come in and stay. 
They might come in for a while, but ultimately, they will leave 
because they are motivated but frustrated.
    Senator Rounds. Dr. Waltzman, you did not get a chance to 
respond to Senator Blumenthal's question. I think it is a good 
one. Would you care to respond to that?
    Mr. Waltzman. Yes. There is one additional thing. 
Everything Clint said is true, except that there is more, and 
it is actually even worse.
    The problem is that a young person would get to wherever 
they are going to go in the government, and they are going to 
be gung-ho and ready to act, and then they are going to find 
out, well, gee, we have all of these spectacular restrictions 
and lawyers and all kinds of problems. Never mind about all of 
the other things you have to do. There are so many restrictions 
on what you are able to do that they sit there and say, okay, 
why am I doing this to begin with? If they are not going to 
actually let me do the job because of all of these problems, 
why am I here?
    That is an even bigger problem. If that can be overcome, 
the money, I do not think, is the big issue. All these other 
things, the time to take from people, is not the big issue.
    That is the central issue. They come because they are 
patriotic. They want to do the job. You do not allow them 
because of these rules.
    Senator Blumenthal. My time has expired, and I have more 
questions that perhaps I can submit to the panel. 
Unfortunately, I have to go to another commitment. But I just 
want to thank you all for your service to our Nation, each of 
you has an extraordinary record of public service, and suggest 
that perhaps that record of public service reflects motivations 
and instincts and a worldview that is not shared because you 
have committed your lives to public service necessarily by the 
broader American public.
    But I hope you are right, that people would be attracted. 
Also, to just add a caveat, perhaps, to the point that you made 
so well about the screening. You will remember that, to our 
sorrow, we encountered situations where the screening seemed to 
be inadequate to rid ourselves of the Snowdens before they did 
what they did. That, in turn, precipitated a major sort of 
effort to clamp down.
    There is a balance here, and I recognize that, if you 
screen out everybody who loves to work in socks at home, or at 
some point during their education used a controlled substance, 
you may deprive yourself of the most creative and ingenious of 
the talent. But it is a dilemma how we screen. I take that 
point.
    Senator Rounds. Let me, briefly, the cyber lawyer of the 
future is going to look different than perhaps what a lawyer 
looks like today. But I would like, as long as Senator 
Blumenthal is still here, one item of clarification I would 
like, in terms of your statement, Mr. Watts, the integrity of 
the elections was influenced because they suggested it was 
influenced. I do not believe there was actually any evidence 
found where they actually did anything.
    Do you just want to clarify that a little bit?
    Mr. Watts. Yes. I do not believe that any election systems 
were hacked into. I do not believe that any votes were changed. 
Their goal was to create the perception there might have been 
so that they could further drive wedges inside the U.S. 
electorate.
    I definitely want to clarify that. I saw no evidence of it. 
It was a theme. It was not an actual truth or an action that 
occurred.
    Senator Rounds. Thank you.
    You had one quick response to Senator Blumenthal?
    Mr. Watts. Yes. I think one of the things that we have gone 
to in the post-9/11 world is that everyone has to have a 
security clearance and access to everything.
    Influence is an open business. I can understand it on the 
technical side, dealing with hacking and cyber lawyers. But 
there are two components to this.
    The other part is just understanding information, social 
media, and how counter-influence would be done. That does not 
require a clearance.
    It is so much easier for me to track an influence effort 
for a terrorist group or a nation-state by sitting at my house 
than it is in the government. I do not need access to 
classified information to do that part of it.
    It helps at the higher levels. Obviously, you need some 
program managers, your key decision-makers, to be able to see 
both sides of it. But we do not need to bring everybody into 
the government and force them to have a security clearance so 
they can never look at classified information, which happens 
quite a bit. I think the goal is we bring in the best talent, 
and we put them in a place where we still protect our secrets.
    I do understand your point about Edward Snowden and some of 
these others. They had clearances. They had access to 
information they did not need and then stole it. I think, 
actually, we give them no classified information. I think what 
we set them on is most of this stuff is happening in the open 
source.
    Even the investigations of cyber are happening in the dark 
web, but that is accessible outside the government. I do think, 
with our top cyber people that are doing programming, hacking, 
those sorts of things at the NSA and other intel agencies, then 
that obviously makes sense, that they be cleared and heavily 
scrutinized and monitored.
    Senator Blumenthal. I think that is a really important 
point. It is a little bit like in my world. I used to be a 
prosecutor.
    Our informants do not pass security clearance. Our 
witnesses often would never even come close to passing a 
security clearance. But as we used to argue to the jury, not 
everyone involved in this criminal drug conspiracy is going to 
be a choir boy. You can use those folks to ferret out 
information and to track down--I mean, not that they are going 
to be people we recruit from the other side. But, you are 
right, they do not necessarily--that is why it is just 
analogous. It is not an exact comparison.
    Mr. Watts. I can give you an example of who I would hire 
right now. I would hire the people who were making fake news 
leading up to the election. If they are good at making fake 
news for clicks and getting ad revenue, they would be the first 
people I would hire to come in and tell me what fake news looks 
like on the Internet. They know how to make it, so they are the 
best ones at detecting it.
    They would be great candidates. You could go to them and 
say, oh, by the way, you might have been doing some nefarious 
things that were not quite right, but you could rectify that by 
coming on board and telling us about others who are doing 
something similar to you.
    Senator Blumenthal. They would probably recognize M.O. 
[Modus Operandi] of whoever was producing----
    Mr. Watts. For sure.
    Senator Blumenthal.--because they have a pretty good guess 
as to who was producing.
    Mr. Watts. Yes.
    Senator Rounds. Very good.
    Senator Blumenthal. Thank you, Mr. Chairman. I apologize, 
but this is a fascinating topic.
    Senator Rounds. It is, and part of a small subcommittee is 
that, once in a while, you can take a little leeway. Our goal 
here is to get results.
    We are learning, as this is a new subcommittee. As we get 
into this new stuff, everything that you are providing us is 
new information to us.
    I think the message that most of our members would tell you 
is that we do not know much about cybersecurity, and what we 
are trying to do is to learn it and to make good decisions, and 
that means getting good information.
    We most certainly appreciate your participation with this 
subcommittee today.
    Once again, your full statements will be accepted into the 
record.
    Senator Blumenthal, do you have anything else?
    We will call this meeting adjourned. Thank you.
    [Whereupon, at 3:35 p.m., the subcommittee was adjourned.]

                                 <all>
</pre></body></html>
